RESPONDENT APPENDIX
TABLE OF CONTENTS
OPINIONS AND ORDERS
Order of the Circuit Court of Cook County,
Law Division (August 23, 2018) ......................... 1a
Distribution Order of the Circuit Court of Cook
County, Law Division (September 10, 2018) ..... 3a
Order of the Circuit Court of Cook County,
Probate Division (May 22, 2019)........................ 8a
Order of the Circuit Court of Cook County,
Probate Division (July 2, 2019)........................ 10a
Order of the Circuit Court of Cook County,
Illinois Law Division (July 3, 2019) ................. 12a
OTHER DOCUMENTS
Motion to Convert to Supervised Administration
(November 16, 2018) ........................................ 14a
Motion to Remove Padma Rao as Independent
Administrator (November 16, 2018) ................ 18a
Colloquy of Judge Deglado, Circuit Court of Cook
County, Illinois (December 19, 2018) .............. 29a
Petition to Clarify This Court’s December 19, 2018
Ruling (January 11, 2019) ............................... 34a
Padma Rao’s Motion to Reconsider Ruling on
Midland Trust Request for Direction
(May 30, 2019) .................................................. 43a

RESPONDENT APPENDIX
TABLE OF CONTENTS (Cont.)
MTC’s Response to Padma Rao’s Motion to
Reconsider Ruling on Midland Trust Request
for Direction (June 19, 2019) ........................... 47a
MTC Answer to the Appellant Petition for Leave
to Appeal Pursuant to Supreme Court Rule
315 (May 28, 2020) ........................................... 62a

Res.App.1a
ORDER OF THE CIRCUIT COURT OF
COOK COUNTY, LAW DIVISION
(AUGUST 23, 2018)
IN THE CIRCUIT COURT OF
COOK COUNTY, ILLINOIS
COUNTY DEPARTMENT, LAW DIVISION
________________________
PADMA RAO, as Independent Administrator of the
Estate of BASAVAPUNNAMMA K. RAO, deceased,

Plaintiff,
v.
NORTHSHORE UNIVERSITY HEALTHSYSTEM,
ROBERT VALLEAU, D.O., SHALINI RAVELLA,
M.D., LAMENTA S. CONWAY, M.D., and
PATRICK LAY, M.D.,

Defendants.
________________________
2014 L 12745
Before: Thomas V. LYONS II, Judge.
This cause coming on to be heard for pre-trial
conference and the Court being fully advised;
IT IS HEREBY ORDERED:
1. Defendants, NORTHSHORE UNIVERSITY
HEALTHSYSTEM and PATRICK LAY, M.D., have
offered a settlement in the amount of $2,100,000.00.

Res.App.2a
2. Plaintiff, PADMA RAO, acting as Independent
Administrator of the Estate of BASAVAPUNNAMMA
K. RAO, Deceased, has agreed to accept the aforesaid
offer.
3. This Court knowing and understanding the
allegations of this case and the likely evidence in this
case, finds said settlement offer to be fair and reasonable.
ENTER:
/s/ Thomas V. Lyons II
Judge
Date: August 23, 2018

Res.App.3a
DISTRIBUTION ORDER OF THE
CIRCUIT COURT OF COOK COUNTY,
LAW DIVISION
(SEPTEMBER 10, 2018)
IN THE CIRCUIT COURT OF
COOK COUNTY, ILLINOIS
COUNTY DEPARTMENT, LAW DIVISION
________________________
PADMA RAO, as Independent Administrator of the
Estate of BASAVAPUNNAMMA K. RAO, deceased,

Plaintiff,
v.
NORTHSHORE UNIVERSITY HEALTHSYSTEM,
and PATRICK LAY, M.D.,

Defendants.
________________________
2014 L 12745
Before: Thomas V. LYONS II, Judge.
This cause coming on to be heard, all parties being
represented by counsel and it appearing to the Court
as follows:
A. That the Court previously entered an Order on
8/23/18 between Defendants, NORTHSHORE UNIVERSITY HEALTH SYSTEM and PATRICK LAY, M.D.,
and Plaintiff, PADMA RAO, as Independent Administrator of the Estate of BASAVAPUNNAMMA RAO,
Deceased, settling the case for sum of $2,100,000.00
($500,000 for the Wrongful Death Claim and $1,600,000

Res.App.4a
for the Survival Act Claim) in full and final settlement
of the Survival and Wrongful Death causes of action
and further, the court found in that previous Order
that the sum was fair and reasonable.
B. Padma Rao retained the law firm of Karlin,
Fleisher and Falkenberg, LLC to litigate this matter
pursuant to an attorney client agreement setting forth
the attorney’s fee as being 1/3rd of the total settlement
and said agreement allowed for reimbursement of costs
expended.
After consideration of the above findings, it is
hereby ordered as follows:
1. That this Court having reviewed the offer and
issues of liability raised in this cause finds that the
total settlement of $2,100,000.00, broken down as set
forth above, is fair and reasonable and hereby approves
same. The Court further instructs the Independent
Administrator to execute Releases in exchange for a
gross settlement draft in the amount of $2,100,000.00
payable to the Independent Administrator and Karlin,
Fleisher & Falkenberg, attys, with distribution to be
made as follows:
Name

Amount

Karlin, Fleisher & Falkenberg
(Attorneys’ Fees)

$

700,000.00

Karlin, Fleisher & Falkenberg
(Costs)
Estate of Basavapunnamma K. Rao

$

71,447.81

Wrongful Death Proceeds

$

Total:

$ 2,100,000.00

$ 1,012,223.44
316,328.75

Res.App.5a
2. That the law firm of Karlin, Fleisher & Falkenberg, LLC, is entitled to receive attorney’s fees in
the amount of $700,000.00 and costs of litigation in
the amount of $71,447.81 and the Court finds that
sums are reasonable and proper and approves same,
subject to possible attorney fee distributions of 1/6th
each of said $700,000.00 amount to referring attorneys
Cannon and Gordon following separate order.
3. The court determines that there are no liens
and/or other interests against these proceeds.
4. After deduction of the attorney fees and costs,
the division between the Wrongful Death Act Proceeds
and the Survival Act Proceeds will be as follows:
Wrongful Death Act Proceeds
Gross Amount
Percentage of Settlement

$ 500,000.00
23.8%

Apportioned Attorney
Fee Deduction

$ 166,666.67

Apportioned Attorney
Expenses Deduction

$ 17,004.58

Remaining Funds

$ 316,328.75

Res.App.6a

Survival Act Proceeds
Gross Amount

$ 1,600,000.00

Percentage of Settlement

76.2%

Apportioned Attorney
Fee Deduction

$

533,333.33

Apportioned Attorney
Expenses Deduction

$

54,443.23

Remaining Funds

$ 1,012,223.44
Totals

Gross Amount

$ 2,100,000,00

Percentage of Settlement

100%

Apportioned Attorney
Fee Deduction

$

700,000.00

Apportioned Attorney
Expenses Deduction

$

71,447.81

Remaining Funds

$ 1,328,552.19

5. The pro rata share of the net proceeds attributable to the Wrongful Death case are $316,328,75 and
are to be distributed by agreement with 70% of said
amount to Padma Rao ($221,430.13) and 30% of said
amount to Anita Rao ($94,898.62), and the court finds
this division to be fair and reasonable.
6. The pro rata share of the net proceeds from the
Survival Act settlement in the amount of $1,012,223.44
are hereby a part of the Estate of Basavapunnamma
Rao, deceased, subject to approval and disbursement
in the Probate Division.

Res.App.7a
7. All matters and controversy as between the
Plaintiff and the Defendants, NORTHSHORE UNIVERSITY HEALTH SYSTEM and PATRICK LAY,
M.D., having been fully compromised, settled and
adjourned this cause of action is hereby dismissed with
prejudice and without costs as to said Defendants.
IT IS HEREBY ORDERED that this Order shall
be effective only after the entry in the probate division
of an order approving the bond or other security
required to administer the settlement and distribution
provided in this Order, and given Padma Rao’s refusal
to sign the Release document and agreement to withdraw as Independent Administrator, that a Bank be
substituted in by the probate Court to further effectuate
the terms of this agreement including the execution of
a Release.
Enter:
/s/ Thomas V. Lyons II
Judge
Date: September 10, 2018

Res.App.8a
ORDER OF THE CIRCUIT COURT OF
COOK COUNTY, PROBATE DIVISION
(MAY 22, 2019)
IN THE CIRCUIT COURT OF
COOK COUNTY, ILLINOIS
COUNTY DEPARTMENT–PROBATE DIVISION
________________________
ESTATE OF BASAVAPUNNAMMA K. RAO,

Deceased.
________________________
Case No. 2013 P 6243
Before: Hon. James P. MURPHY, Judge Presiding.
This matter coming to be heard before this Court
upon the presentation of the Petition for Rule to Show
Cause and Petition for Ruling on Report to the Court
and Request for Direction, the Court being fully
advised of the matters herein;
IT IS HEREBY ORDERED:
1. The Petition for Rule to Show Cause related to
the filing of the Final Account of Padma Rao is entered
and continued to June 5, 2019 at 10:00. Proper Notice
of the Rule to Show Cause shall issue;
2. Over the objection of Midland Trust Company
as Successor Supervised Administrator, Padma Rao is
given leave to file her Response to the Report to Court,
instanter;

Res.App.9a
3. After review of the Report to the Court and
Padma Rao’s Response thereto, Midland Trust Company, as the Successor Supervised Administrator is
hereby authorized to withdraw the Motion to Vacate
filed by Padma Rao, as the former Independent
Administrator in Law Division Case #2014 L 12745 in
the best interests of the Estate.
/s/ James P. Murphy
Judge
Judge’s No. 1933
Date May 22, 2019

Res.App.10a
ORDER OF THE CIRCUIT COURT OF
COOK COUNTY, PROBATE DIVISION
(JULY 2, 2019)
IN THE CIRCUIT COURT OF
COOK COUNTY, ILLINOIS
COUNTY DEPARTMENT–PROBATE DIVISION
________________________
ESTATE OF BASAVAPUNNAMMA K. RAO,

Deceased.
________________________
Case No. 2013 P 6243
Before: Hon. James P. MURPHY, Judge Presiding.
This matter coming to be heard before this Court
upon the hearing related to: Padma Rao’s Motion to
Reconsider Ruling on Midland Trust Request for
Direction; Motion for Direction to Determine Padma
Rao Disclaimed her Interest to any Recovery in
Cook County Case No. 14 L 12745; Motion for Rule
137 Sanctions against Michael Steigmann and Padma
Rao; Petition to Settle Cause of Action–Wrongful
Death; Second Petition for Rule to Show Cause;
Accounting of Padma Rao, former Independent and
Supervised Administrator with Will Annexed, the
Court being fully advised of the matters herein;

Res.App.11a
IT IS HEREBY ORDERED:
1. Padma Rao’s Motion to Reconsider is denied
for the reasons on the record;
2. Motion for Direction to Determine Padma Rao
Disclaimed her Interest is denied for the reasons on
the record;
3. Motion for Rule 137 Sanctions against Michael
Steigmann and Padma Rao is denied for the reasons
stated on the record;
4. With the filing of Padma Rao’s Accounting the
Second Rule to Show Cause is withdrawn;
5. Padma Rao’s Motion for Stay Pending an
Appeal is denied with leave to refile;
6. Padma Rao’s Petition for Partial Distribution
is denied;
7. All parties are provided 30 days to object to the
Accounting of Padma Rao; Padma Rao has 14 days in
which to Respond to any Objections; All Replies shall
be filed 14 days thereafter;
8. The Petition to Settle Cause of Action, any
argument related to 304(A) language and all other
matters are hereby continued to July 3, 2019 at 10:00
a.m.
/s/ James P. Murphy
Judge
Judge’s No. 1933
Date July 2, 2019

Res.App.12a
ORDER OF THE CIRCUIT COURT OF
COOK COUNTY, ILLINOIS LAW DIVISION
(JULY 3, 2019)
IN THE CIRCUIT COURT OF COOK COUNTY,
ILLINOIS LAW DIVISION
________________________
MIDLAND TRUST COMPANY AS SUPERVISED
ADMINISTRATOR WITH WILL ANNEXED OF
THE ESTATE OF BASAVAPUNNAMMA
K. RAO, DECEASED,

Plaintiff,
v.
NORTHSHORE UNIVERSITY
HEALTHSYSTEM, ET AL.,

Defendants.
________________________
No. 2014 L 012745
Before: Hon. Thomas V. LYONS, II, Judge Presiding.
This matter coming before the Court upon presentation of the Motion to Withdraw Motion to Vacate,
Motions for Sanctions and Motions for Contempt of
Court, due notice being provided to all interested
Parties, this Court having jurisdiction and being duly
advised of all matters herein;
IT IS HEREBY ORDERED:

Res.App.13a
1. Midland Trust Company, not individually, but
solely as the Court-appointed Successor Supervised
Administrator with Will Annexed of the Estate of
Basavapunnamma K. Rao, Deceased (“Estate”), is
hereby granted leave to withdraw the Motion to
Vacate, with prejudice; for the reasons stated on the
record;
2. The Settlement Order entered by this Court on
August 23, 2018 shall stand; for the reasons stated on
the record;
3. The Distribution Order entered by this Court
on September 10, 2018 shall stand; for the reasons
stated on the record;
4. This matter is transferred back to the Probate
Court (Cook County Case Number 2013 P 6243) for
approval of the Settlement of the Lawsuit and to
effectuate the Settlement Order entered August 23,
2018 and Distribution Order entered September 10,
2018, all pursuant to the provisions of the Joint Order
of the Probate, Law, and Municipal Divisions entered
in August, 2014;
5. The Motions for Sanctions and Motions for
Contempt of Court are hereby entered and continued
to July 16, 2019 at 9:00 a.m.; and
6. All parties involved with the Motion for Sanctions and Motions for Contempt of Court shall meet
prior to July 16, 2019 to seek resolution.
/s/ Thomas V. Lyons, II
Judge
Circuit Court - 1986
Date July 3, 2019

Res.App.14a
MOTION TO CONVERT TO
SUPERVISED ADMINISTRATION
(NOVEMBER 16, 2018)
IN THE CIRCUIT COURT OF
COOK COUNTY, ILLINOIS
COUNTY DEPARTMENT, PROBATE DIVISION
________________________
ESTATE OF BASAVAPUNNAMMA K. RAO,

Deceased.
________________________
No. 13 P 6243
NOW COMES ANITA RAO, by and through her
attorneys Bielski Law Office, Ltd., and for her Motion to
Convert to Supervised Administration, states as follows:
1. Decedent died testate and was survived by two
daughters. Neither daughter was named executor in
the Will.
2. Anita Rao, daughter, is as an heir and an
interested person.
3. Padma Rao, daughter, is an heir and was
appointed as Independent Administrator with Will
Annexed.
4. Undersigned counsel for Anita Rao was recently
retained by Anita Rao to represent her in the matter
of PADMA RAO, an Independent Administrator of the
 Original Document was erroneously titled “Motion to Covert”

Res.App.15a

Estate of BASAVAPUNNAMMA K. RAO, deceased, v.
NORTHSHORE UNIVERSITY HEALTHSYSTEM,
ROBERT VALLEAU, D.O., SHALINI RAVELLA, MD.,
and NORTHSHORE UNIVERSITY HEALTHSYSTEM
FACULTY PRACTICE ASSOCIATES d/b/a NORTHSHORE UNIVERSITY HEALTHSYSTEM MEDICAL
GROUP, Cook County Case No. 14 L 12745 (“Lawsuit”)
5. The Lawsuit is an asset of this Estate.
6. Filed contemporaneously with this motion is
Anita Rao’s Petition to Remove Padma Rao as Independent Administrator. Anita Rao incorporators the
allegations contain therein in this motion, but to
summarize, Anita Rao alleges:
A)

Judge Lyons in the Lawsuit stated on the
record he does not believe Padma Rao is
suitable as representative;

B)

Padma Rao lied under oath in the Lawsuit
before Judge Lyons;

C)

Padma Rao is wasting assets of the Estate,
and her actions are directly threatening a $2.1
million settlement reached in the Lawsuit;

D) Padma Rao received an order of protection
against Anita Rao. There is a severe conflict
of interest having Padma Rao managing and
overseeing money that Anita Rao is a beneficiary of; and,
E)

Counsel for Anita Rao discovered that Padma
Rao, as administrator, allowed the Estate of
Musunuru S. Rao, Cook County Case No 09
CH 1034, to lose approximately $2 million in
value, she paid herself $155,000.00 in fees,
and incurred approximately $250,000.00 in

Res.App.16a
attorney’s fees. This was done without proper
notice to Anita Rao, who was an heir of
Musunuru S. Rao.
7. Padma Rao is not cooperating with the Plaintiff’s
attorneys in the Lawsuit, and in fact being directly
confrontational with them.
8. Anita Rao further demands that Padma Rao be
compelled to file an itemized accounting of all receipts
and disbursement in this Estate.
9. 755 ILCS 5/28-4 allows an interested person
such as Anita Rao to petition this Court to terminate
independent administrator. The Will, attached hereto
as Exhibit A, does not mandate independent administration and there is good cause to convert to supervised
administration.
10. This Estate requires supervision to protect the
Estate beneficiaries, to prevent the wasting of assets,
and to preserve the status quo.
WHEREFORE, Anita Rao requests this Honorable
Court convert this matter to Supervised Administration,
and for any other relief this court deems equitable and
just.
Respectfully submitted,
ANITA RAO

Res.App.17a
By: /s/ John N. Bielski II
one of her attorneys
Bielski Law Office, Ltd.
53 W. Jackson Blvd., Suite 401
Chicago, IL 60604
(312) 583-9430
Attorney No. 48028
bielski@johnbielskilaw.com

Res.App.18a
MOTION TO REMOVE PADMA RAO AS
INDEPENDENT ADMINISTRATOR
(NOVEMBER 16, 2018)
IN THE CIRCUIT COURT OF
COOK COUNTY, ILLINOIS
COUNTY DEPARTMENT, PROBATE DIVISION
________________________
ESTATE OF BASAVAPUNNAMMA K. RAO,

Deceased.
________________________
No. 13 P 6243
NOW COMES ANITA RAO, by and through her
attorneys Bielski Law Office, Ltd., and for her Motion
to Remove Padma Rao as Independent Administrator
of the Estate of Basavapunnamma K. Rao (“Estate”)
pursuant to 755 ILCS 5/23-2, states as follows:
1. Decedent died testate and was survived by two
daughters. Neither daughter was named executor in
the will.
2. Anita Rao, daughter, is an heir and an interested
person.
3. Padma Rao, daughter, is an heir and was
appointed as Independent Administrator with Will
Annexed.
4. Undersigned counsel for Anita Rao was recently
retained by Anita Rao to represent her in the matter
of PADMA RAO, an Independent Administrator of the

Res.App.19a

Estate of BASAVAPUNNAMMA K. RAO, deceased, v.
NORTHSHORE UNIVERSITY HEALTHSYSTEM,
ROBERT VALLEAU, D.O., SHALINI RAVELLA, MD.,
and NORTHSHORE UNIVERSITY HEALTHSYSTEM
FACULTY PRACTICE ASSOCIATES d/b/a NORTHSHORE UNIVERSITY HEALTHSYSTEM MEDICAL
GROUP, Cook County Case No. 14 L 12745 (“Lawsuit”).
5. The Lawsuit is an asset of this Estate.
6. Counsel was retained by Anita Rao because
the Independent Administrator settled the lawsuit after
numerous settlement conferences were held between
the parties.
7. After agreeing to the settlement, Judge Lyons
entered an order acknowledging the settlement in the
amount of $2.1 million on August 23, 2018. See
attached Exhibit A.
8. The matter was continued to September 5, 2018.
On that date, Padma Rao falsely claimed she never
accepted the settlement and could not settle any case
for any amount because her religious beliefs didn’t
allow for settlement.
9. Padma Rao never voiced any claim that her
religious beliefs didn’t allow for settlement prior to
September 5, 2018, and allowed the parties, their
attorneys, Judge Lyons, and retired Judge Panter to
spend numerous days and hours in settlement conferences and incur thousands of dollars in fees and costs
in reliance on her expressed agreement to participate
in settlement conferences before making these claims.

Res.App.20a
Padma Rao Lied to Judge Lyons in Open Court
10. Padma Rao further falsely testified that she
previously advised Judge Lyons that she had religious
objections to settling the lawsuit. Judge Lyons was upset
with the accusation, and flatly rejected any claim that
Padma Rao raised any religious objections before
September 5, 2018. Judge Lyons stated that Padma’s
representations to the Court were “factually inaccurate
and easily dis-proven” as follow:
THE COURT: Then—okay. So this is the first
time—okay. This—and I’m going to be very
blunt here because I’ve dedicated hours and
hours and hours to both settlement—in
settlement discussions with you, with your
attorneys, with other parties, other interested parties, other interested parties and
defense attorneys, as well. For the first time
today I’m hearing that Hinduism has come
into effect.
We talked about different numbers, other
numbers you had in mind, other numbers
you had had in mind when you were with
retired Judge Panter at the private mediation
session, other numbers with me in the several
sessions that we had. Your attorney was
making phone calls to you when you were
not—the time you couldn’t be present, and
never once was it brought to my attention that
according to you now—for the first time I’m
hearing that it’s against the Hindu religion.
And I find that incredible. Because you—you
mentioned a figure of $6 million at one point.

Res.App.21a
So at what point does the Hindu religion allow
you to accept a settlement? Because you came
up with a number of $6 million at one point.
MS. PADMA RAO: Your Honor, I was—
THE COURT: And $6 million was never offered,
nor was anything approaching $6 million
offered.
MR. FALKENBERG: May I take two minutes to
consult with my client, your Honor? I think
it’s important.
THE COURT: Sure. I think it’s important that she
be careful when she makes representations
that are factually inaccurate and easily disproven.
MR. FALKENBERG: That’s the basis but let me
talk to her.
THE COURT: I think it’s a wonderful idea, Mr.
Falkenberg.
Report of Proceedings dated September 5, 2018, pages
21-23, attached hereto as Exhibit B.
Judge Lyons Doubted That Padma Rao Is
Looking Out for the Best Interests of the Estate
and Questioned Whether She Is Qualified to
Be an Administrator
11. Judge Lyons further questioned whether
Padma was looking out for the best interests of the
Estate, and inferred that she should be removed and
replaced as the representative:
THE COURT: Okay. Far be it for me to do anything against your religious beliefs, which is

Res.App.22a
why I’m certain you never brought that up
before. Because I don’t do anything to interfere with anyone’s religious beliefs, whatever
they may be.
Under the circumstances, I don’t believe I have
a choice in this matter because your—if you
don’t want to participate in the settlement,
that’s fine. What I am inclined to do—and I’ll
let the attorneys weigh in on this. I’m
inclined to transfer this to the presiding
Judge of the probate division and suggest
that you be removed as the administrator of
this estate and someone else, perhaps your
sister, replace you.
I’ll hear from the attorneys if you have any
other suggestions. Because I have to look out
for the best interest of the estate.
Exhibit B, page 27.
12. Judge Lyons, in discussions with Plaintiff’s
counsel, stated that an administrator such as Padma
Rao who refuses to settle a lawsuit for any reasonable
amount, is not qualified to act as the representative of
the Estate:
MR. FALKENBERG: I’d like to add one thing to
what you’re saying and why you’re saying it
for my client’s benefit. If one is not willing to
negotiate a reasonable settlement on behalf
of the estate—
THE COURT: Whether it be for religious reasons
or other reasons.
MR. FALKENBERG: —you’re entitled to not want
to do that. But if—but my—I think what the

Res.App.23a
judge is raising, and correct me if I’m wrong,
Judge, is that if one is not willing to enter
into a settlement that is reasonable for the
estate, then one is not in a position that one
can act as an administrator, independent
administrator for the estate, do what’s in the
best interest. Because if you’re saying if they
offered 20, 30, 40, $50 million—
THE COURT: Which, by the way, is not what was
said this last week. Just so the record is clear,
there were numbers out came out of the
administrator’s mouth.
MR. FALKENBERG: Understood, understood.
THE COURT: Okay.
MR. FALKENBERG: But my point is if you’re
saying no amount of money will settle the
case, how can you act in the best interest of
the estate is what his Honor is indicating,
He’s not indicating that you did last week is
wrong, what he is indicating I believe is that
he has concerns, and, again, correct me if I’m
wrong your Honor, but concerns that if you
cannot enter into a reasonable settlement now,
or that’s your position that you never could
because of religious beliefs, then you’re not an
appropriate person to be appoint administrator
and—
MR. RZEPCZYNSKI: And, your Honor, if I may.
I did apprise my client of that being an option
for you to take that—
The COURT: It’s not an option. I’m willing to
listen to other options. At this point, I’m not

Res.App.24a
sure I have much of a choice. Because if I have
someone who’s been appointed the administrator who is now telling me for the first
time that her religious beliefs and her mother’s
religious beliefs prevent her from acting in
that capacity.
Exhibit B, pages 28-30
13. The September 5, 2018 hearing was continued
to September 10, 2018. Between the two hearings,
numerous discussions were held among the respective
parties about Padma Rao’s role as administrator and
the proposed distribution of the wrongful death proceeds.
14. During that period, Padma Rao, once again
acknowledging the settlement and being represented
by counsel, agreed to a 70/30 split of the wrongful death
proceeds with her sister. See attached Exhibit C.
15. Padma Rao appeared before Judge Lyons On
September 10, 2018. Padma Rao represented to Judge
Lyons that she would step aside as Administrator and
allow a bank to substitute in as an administrator. She
further consented to allowing the bank to sign any
necessary paperwork, affirmed her agreement to the
70/30 wrongful death distribution, and stated she had
no objection to the proposed distribution order. This
was confirmed in the Order entered by Judge Lyons
as follows:
IT IS HEREBY ORDERED that this Order
shall be effective only after the entry in the
probate division of an order approving the bond
or other security required to administer the
settlement and distribution provided in this
Order, and given Padma Rao’s refusal to sign
the Release document and agreement to

Res.App.25a
withdraw as Independent Administrator,
that a bank be substituted in by the probate
Court to further effectuate the terms of this
agreement including the execution of a
Release. (emphasis added)
Exhibit D, page 3.
16. After the September 10, 2018 hearing, counsel
for this Estate and counsel for Anita Rao discussed
appointing a bank as an administrator to replace
Padma Rao. Paperwork was tendered to Anita Rao by
the Estate’s attorney to effectuate appointing the bank
as an administrator in compliance with Judge Lyons’s
Order. Anita Rao signed the paperwork. As soon as
Anita Rao signed the paperwork Padma Rao began
filing new pleadings (through new counsel) alleging she
never consented to the settlement, and never agreed to
what she represented to the Law Division on September
10, 2018.
17. Padma Rao filed pleadings alleging Judge
Lyons lied, that he “railroaded” her, and that Judge
Lyons and her attorneys “cajoled, pressured” her “and
made her participate in a process she did not want,
never consented to, and tried desperately to exit.” See
Exhibit E.
It Was Recently Discovered Padma Rao
Mismanaged Her Father’s Estate
18. Decedent was predeceased by her husband,
Musunuru S. Rao.
19. Padma was the administrator of that Estate.
Undersigned counsel, after being retained in this case,
reviewed the Circuit Clerk’s file for the Estate of
Musunuru S. Rao, Cook County Case No 09 CH 1034.

Res.App.26a
The investigation continues, but from reviewing that
file it appears that:
A)

Padma allowed that Estate to lose approximately $2,000,000.00 in market value;

B)

Padma paid herself an administrator fee of
$155,000.00;

C)

Padma allowed that estate to incur over
$250,000.00 in attorney’s fees; and,

D) Padma Rao did not provide proper notice of
the Estate (and Padma Rao’s self-dealing) to
her sister and heir, Anita Rao.
20. Anita Rao is proceeding with re-opening the
Estate of Estate of Musunuru S. Rao.
21. Padma has a history of mismanaging and
wasting estate assts.
22. Padma has never tendered an accounting to
Anita Rao for her father’s estate, or this estate.
23. The first time Anita Rao knew there was
approximately $6 million in this Estate was after
undersigned counsel demanded to know the value of
the Estate in September 2018.
Padma Rao Should Not Be the Administrator
When She Has an Order of Protection Against
the Other Heir
24. Padma Rao has an order of protection against
Anita Rao. See attached Exhibit F. There is a severe
conflict of interest in allowing an administrator who
has order of protection against her sister to have any
control over her sister’s share of the Estate.

Res.App.27a
25. An administrator that has an adverse interest
or hostility towards the distributees of the estate is
not qualified to be an administrator. See In re Estate
of Abell, 395 Ill.App.2d 1049, 269 N.E.2d 352 (1971).
755 ILCS 5/23-2 Dictates That Padma Rao
Should Be Removed
26. Judge Lyons has clearly lost in faith in Padma
Rao’s ability or qualifications to act as administrator.
The Administrator is unsuitable for the discharge of
her duties pursuant to 755 ILCS 5/23-2(9).
27. Padma Rao is wasting the assets of the Estate,
and is acting in the reckless disregard of the interests
of the Estate. The Administrator should be removed
as Administrator pursuant to 755 ILCS 5/23-2(4) and (5).
28. Padma Rao is directly threatening a $2.1
million settlement on behalf of the Estate.
29. Anita Rao does not want to be appointed as
administrator, and has never expressed any desire to
be an administrator.
30. A third-party bank, or an independent party
of the Court’s choosing, should be appointed as
supervised administrator of this Estate. Anita Rao is
proposing Midland Trust Company to administer the
Estate. The petition to appoint Midland Trust Company
is being sent out for signature, and will be tendered to
the Court and counsel for Padma Rao.
31. Anita Rao has suffered attorney’s fees and
costs because of Padma Rao’s misconduct.
32. There will be serious harm to this Estate if
Padma Rao is allowed to remain as Administrator.

Res.App.28a
33. Pursuant to 755 ILCS 5/9-3, should Padma
Rao be removed as administrator, she is not allowed to
name a successor.
WHEREFORE, Anita Rao requests this Honorable Court remove Padma Rao as Independent
Administrator, and appoint a third-party supervised
administrator, Midland Trust Company, or a Courtappointed third-party, and for any other relief this
Court deems equitable and just.
Respectfully submitted,
ANITA RAO
By: /s/ John N. Bielski II
one of her attorneys
Bielski Law Office, Ltd.
53 W. Jackson Blvd., Suite 401
Chicago, IL 60604
(312) 583-9430
Attorney No. 48028
bielski@johnbielskilaw.com

Res.App.29a
COLLOQUY OF JUDGE DEGLADO,
CIRCUIT COURT OF COOK COUNTY, ILLINOIS
(DECEMBER 19, 2018)
IN THE CIRCUIT COURT OF
COOK COUNTY, ILLINOIS
COUNTY DEPARTMENT, PROBATE DIVISION
________________________
IN RE THE ESTATE OF
BASAVAPUNNAMMA K. RAO,

Deceased.
________________________
No. 13 P 6243
Before: Honorable Kent A. DELGADO, Judge.
RECORD OF PROCEEDINGS before the HONORABLE KENT A. DELGADO, Judge of the Circuit Court
of Cook County, Illinois, commencing at the hour of
11:46 o’clock a.m., on December 19, 2018, in the matter
of above-entitled cause.
[...]

[December 19, 2018 Transcript, p. 22]
JUDGE DELGADO:
. . . It also shows me that she’s a very determined
person. And Ms. Rao is not a shrinking violet.
So based on that background that I have from Ms.
Rao, the question now becomes not only is this a
new revelation by Ms. Rao that she can’t settle for

Res.App.30a
religious reasons—that’s one question. And that
question in and of itself, whether she can settle or
not, is that in the best interests of the estate?
Even if that was her position from the beginning
and she let everybody know, can someone with a
religious position still act in the best interests of
the estate, and does that make them incapable or
unsuitable to be the administrator?
But more than that, the question I also have to
answer is, now she is stating that this has been
her position the whole time, that she told her
lawyers, that this was her position prior to any
settlement negotiations. She states in her affidavit
that she has always said that she wanted a jury
trial and would never settle. She goes on to say,
at this point, it’s her position that she would
never settle, even today.
So the question then is, did Ms. Rao do this? Well,
I don’t know that I could answer that. I don’t know
that I have enough evidence before me to answer
whether or not she said those things. But it is clear
to me that Ms. Rao, not being a shrinking violet,
being a very determined woman, able to recount
many different things in her life, able to help her
mother, is she someone that would just sit by as
attorneys railroaded her and Judge Lyons railroaded her, as she alleges in her affidavit? And I
think the answer is no.
You were the administrator of this estate. You hired
the attorneys to file and adjudicate the cause of
action before Judge Lyons. You could fire them at
any time. You’re the administrator. You didn’t do
that. There have been numerous negotiations not
only before Judge Lyons, not only amongst the

Res.App.31a
attorneys, but there was also a mediation done by
a retired judge. Those are not inexpensive.
So now, even though Ms. Rao is claiming that she
never wanted to settle and she wanted to go to a
jury trial, she allowed the attorneys, who she was
in charge of as administrator of the estate, to rack
up considerable costs by entering into mediation
with a retired judge and continuing on and extending the life of this case because she continued to
have negotiations in front of Judge Lyons. All the
while, according to her, she never wanted to settle,
she would never agree to anything.
And to me, that is what I’m considering. It’s not
whether it’s a fair and reasonable offer. It might
not be. Ms. Rao might be right. Maybe it should go
to trial because the offer isn’t fair. I don’t know that.
And I’m not here to decide that. But I think her
actions, based on her background, tells me that in
the past however long—it was opened in 2014. The
negotiations to settle with the mediation conference
and conferences between the lawyers and court
dates before Judge Lyons I think constitutes waste
and mismanagement of the estate. And I think
for that, and that alone, I could remove Ms. Rao.
But the other question that I have to answer, which
I also talked about a little bit earlier, is, is she
capable or suitable for the discharge of her duties?
Not just her, is someone capable if their religious
belief is that they can never settle?
Because when you are the administrator of an
estate, you represent all of the heirs, and you have
a fiduciary duty to all of the heirs. You also have
a duty to the court. The court has appointed you as

Res.App.32a
the administrator. So if someone—if that’s someone’s position and they’re never going to come off
that position, are they suitable or capable to discharge their duties?
And before I make my ruling, I want to let Ms. Rao
know that I understand this is very difficult. And
what you’re going through, the loss of a parent, is
very difficult. When it came the way that it came
in your case, and you have a case up in the Law
Division, it’s very emotional, and it’s very difficult, and I understand that.
And I understand that those are your religious
beliefs. And I believe you, that those are your
religious beliefs. But my duty is to the estate. And
my question that I have to answer is, can you
suitably and capably administer the estate with
those beliefs. And I think the answer is no.
So in combination, although I did look at both of
these, incapable, unsuitable to discharge the duties
and whether there was waste or mismanagement,
I found that both of those exist independently,
but I can also consider them cumulatively when I
decide whether or not to discharge Ms. Rao as the
independent executor.
And that is my ruling. Based on everything that
I have just stated, I believe that she did engage
in waste and mismanagement by continuing the
negotiations. And I do believe, based on her stance
for religious beliefs, that she is incapable and
unsuitable for the discharge of her duties.
That does not mean that I’m approving this settlement. It does not mean that I think Judge Lyons
should approve this. I am making no rulings or

Res.App.33a
any findings regarding anything that happened
before Judge Lyons. That’s for Judge Lyons to
decide. Whatever he wants to do, he can do.
I’m not—you’re right. I’m not the appellate court.
And I’m not here to rule on anything that Judge
Lyons has said, anything that Judge Lyons has
done. All I’m here to decide is whether I believe
that Ms. Rao should be removed . . .

Res.App.34a
PETITION TO CLARIFY THIS COURT’S
DECEMBER 19, 2018 RULING
(JANUARY 11, 2019)
IN THE CIRCUIT COURT OF
COOK COUNTY, ILLINOIS
COUNTY DEPARTMENT, PROBATE DIVISION
________________________
ESTATE OF BASAVAPUNNAMMA K. RAO,

Deceased.
________________________
2013 P 6243
NOW COMES Padma Rao, as heir to the Estate
of Basavapunnamma K. Rao, Deceased, by and through
her attorneys Kerry R. Peck and Timothy J. Ritchey,
of Peck Ritchey, LLC, and for her Petition to Clarify
this Honorable Court’s December 19, 2018 Ruling, states
as follows:
BACKGROUND
1. That Padma Rao (“Petitioner”) is presently a
licensed Physician and Surgeon in the State of Illinois
and the District of Columbia.
2. That in 2005 Petitioner left her position as a
nuclear radiologist at Northwestern Memorial in order
to provide assistance to her family overseas.
3. That this Honorable Court acknowledged at
the December 19, 2018 Court proceeding that Petitioner
has an impressive resume and is a very accomplished

Res.App.35a
woman. Please see the Record of Proceedings from
December 19, 2018, specifically page 20, lines 14-16.
attached hereto and made a part hereof as Exhibit A.
4. That this Honorable Court also acknowledged
that Petitioner is a hard worker and very determined
individual who stands up for her firm beliefs. Please
see Exhibit A, specifically page 20, lines 19-20 and
page 21, line 23.
5. That, as this Court correctly opined, the Petitioner has been through a lot and the experience and
challenges of losing her mother has been very difficult
for her and she is very emotionally invested in these
legal proceedings. Please see Exhibit A, specifically page
25, lines 11-16.
6. That Petitioner was appointed as the Independent Administrator of the Estate of Basavapunnamma
K. Rao, Deceased (the “Estate”).
7. That it is important to note that Petitioner was
appointed as Administrator of the Estate and initiated
the cause of action, relative to the Estate, in the Law
Division, and has diligently pursued that action.
8. That on or around November 2018 Anita Rao,
daughter of Basavapunnamma K. Rao (the “Decedent”),
heir and interested party filed a Motion to Remove
Padma Rao as Independent Administrator.
9. That on December 19, 2018 this Honorable Court
heard arguments on Anita Rao’s Motion to Remove
Padma Rao as Independent Administrator.
10. That on December 19, 2018, Anita Rao submitted to this Honorable Court a petition for Midland
Trust Company (“Midland Trust”) to be appointed as
the administrator of the Estate.

Res.App.36a
11. That on December 19, 2018, this Honorable
Court entered an Order removing Padma Rao as
administrator, appointing Midland Trust as Supervised
Administrator of the Estate with the condition that
Midland Trust tender a memorandum to the Court
detailing the steps it will take to administer the
Estate and remain fair and impartial. Please see the
December 19, 2018 Order attached hereto and made a
part hereof as Exhibit B.
12. That the December 19, 2018 Order also stated
that Midland Trust is not authorized to take any
action relative to settlement negotiations or otherwise
in the Law Division until further order of court. Please
see Exhibit B, specifically paragraph 4.
13. That there is an ongoing cause of action in
the Circuit Court of Cook County, Law Division, which
was filed by Padma Rao, on behalf of this Estate.
14. That on August 23, 2018, the Honorable Judge
Thomas Lyons entered an order with respect to a
purported settlement.
15. That there is a Motion to Vacate, filed by the
Padma Rao, as Administrator of this Estate, pending
in the Law Division matter. Please see the Motion to
Vacate attached hereto and made a part hereof as
Exhibit C.
16. That since Petitioner has been removed as
Administrator of the Estate, Midland Trust is required
to substitute into the Law Division action and address
the pending Motion to Vacate.
17. That Midland Trust is also required to take
a fresh look at the issues at hand, conduct its own

Res.App.37a
analysis of the Law Division matter, and submit a
memorandum to this Court relative to the same.
18. That Midland Trust is further required to
seek authority as Supervised Administrator of this
Estate from this Court.
19. That Petitioner is receptive to this Court’s
December 19, 2018 ruling, specifically that this Court
is not looking to “appoint someone to rubber stamp the
settlement” and believes that someone needs to review
this matter “with fresh eyes.” Please see Exhibit A,
specifically page 27, lines 20-23.
20. That, accordingly on that issue, Petitioner
seeks to confirm the parameters of the December 19,
2018 ruling and the process moving forward.
PETITION TO CLARIFY RULING
21. That while Petitioner does not agree with
being removed as administrator of the Estate, she
recognizes and appreciates this Court’s commitment
to supervising Midland Trust and ensuring a fair and
impartial review.
22. That Petitioner has a deadline of January
18, 2019 to appeal her removal as Administrator of the
Estate.
23. That, however, Petitioner is considering foregoing her right to an appeal depending on confirmation
that this Court will supervise Midland Trust in its
analysis of the Estate matters, including the Law
Division action.
24. That Petitioner also seeks clarification as to
her standing and role in the review of the Law Division

Res.App.38a
action, including the pending Motion to Vacate, and
Estate proceedings.
25. That this Petition is brought in an effort to
resolve numerous pending issues and potentially avoid
filing an appeal and avoid further disputes in the Law
Division matter.
26. That based on the December 19, 2018 court
proceedings, it is Petitioner’s understanding that this
Honorable Court’s goal and objective is to have
Midland Trust perform an assessment of the Estate
with “fresh eyes” through an impartial lens. Please
see Exhibit A, specifically page 27, line 23.
27. That it is also Petitioner’s understanding that
this Court will oversee and supervise Midland Trust’s
fresh assessment.
28. That Petitioner wants to ensure that this
Court has all of the necessary information and evidence
in order to perform a comprehensive review of Midland
Trust’s proposed action.
29. That, in turn, Petitioner wants to be certain
that this Honorable Court is aware of relevant information as essential to this Court’s supervision, oversight
and review of Midland Trust.
30. That, as this Estate is now in supervised
administration, Petitioner desires to provide this Court
any and all relevant evidence in order to assist this
Court in its review of Midland Trust’s memorandum
and approach moving forward in the Law Division.
31. That, further, based on the December 19,
2018 court proceedings, it is Petitioner’s understanding
that this Court does not desire for a new administrator
to be appointed and simply seek to “rubber stamp the

Res.App.39a
settlement” for the Law Division matter. Please see
Exhibit A, specifically page 27, line 21.
32. That Petitioner has been closely involved with
this Estate since its inception and possesses critical
information which will aid and assist this Court in its
supervision and ensure that a settlement is not simply
rubber stamped.
33. That, for example, Petitioner was present
during settlement conferences and prior court proceedings and had an opportunity to review and analyze
documents obtained through discovery requests.
34. That it is essential for Petitioner to paint the
full picture for this Court and present evidence as to
why the purported settlement does not provide sufficient
justice for Petitioner’s mother, the Decedent.
35. That Petitioner perceives this Court’s emphasis
on a fresh, fair and impartial review as efficient means
to advance the administration of this Estate.
36. That, however, Petitioner wants to ensure that
she has standing and will have an opportunity to
object and present evidence to reach a resolution as to
whether the Estate should pursue the Motion to
Vacate the purported $2,100,000.00 settlement or
withdraw said motion in the Law Division.
37. That Petitioner seeks confirmation that this
Court will provide direction to Midland Trust, after a
review of the matter, as to whether or not to proceed
with the pending Motion to Vacate.
38. That Petitioner’s fundamental objective is to
ensure this Court is fully apprised of the history and
background of Estate matters in order to reach a decision that is in the best interest of the Estate.

Res.App.40a
39. That 755 ILCS 5/1-2.11 defines an “interested
person” in relation to any particular action or proceedings under the Probate Act as one who:
has or represents a financial interest, property
right or fiduciary status at the time of reference which may be affected by the action,
power or proceeding involved, including without
limitation an heir, legatee, creditor, person
entitled to a spouse’s or child’s award and the
representative. (Emphasis Added).
755 ILCS 5/1-2.11.
40. That Petitioner is an heir to this Estate and
therefore qualifies as an interested person under the
Probate Act.
41. That, as such, it is Petitioner’s position that
she has a right to have her voice heard, participate
and object in proceedings and present evidence to this
Court to support her positions.
42. That if this Court can confirm that Petitioner
has a right to have an active role in the Court’s review
of Midland Trust and the Court’s review of Estate
administration, and in the direction this Court will
provide Midland Trust as to the pending Motion to
Vacate, or any petition related to the Law Division
action, then Petitioner is likely to forgo the appeal of
her removal and the appointment of Midland Trust,
as well as, her continued action in the Law Division.
43. That Petitioner desires to avoid any unnecessary delays and would like to have all matters
consolidated and efficiently addressed.
WHEREFORE, Padma Rao, as heir of the Estate
of Basavapunnamma K. Rao, Deceased, respectfully

Res.App.41a
requests that this Honorable Court enter an order
stating:
A.

This Court will supervise and provide direction
to Midland Trust relative to the Law Division
action, including whether to proceed with
the pending Motion to Vacate the purported
$2,100,000.00 settlement or to withdraw said
motion;

B.

Padma Rao has standing to object and present
evidence as to Midland Trust’s proposed direction as to whether to proceed with the pending
Motion to Vacate the purported $2,100,000.00
settlement or to withdraw said motion;

C.

Padma Rao has standing to address this Court
regarding its supervision of Midland Trust,
including the Court’s direction and approval
of distributions, as well as, objecting and
presenting evidence as to any petition brought
before this Court to approve any purported
settlement in the Law Division action; and

D.

Any further relief that this Honorable Court
deems reasonable and just under the circumstances.
Respectfully Submitted,
Padma Rao, as heir of the Estate of
Basavapunnamma K. Rao, Deceased
/s/ {Illegible}
By: One of her Attorneys

Res.App.42a
Kerry R. Peck/Timothy J. Ritchey
Peck Ritchey, LLC
Attorneys for Padma Rao
105 W. Adams St., 31st Fl
Chicago, Illinois 60603
(312) 201-0900
Atty. No. 39490
tritchey@peckritchey.com

Res.App.43a
PADMA RAO’S MOTION TO RECONSIDER
RULING ON MIDLAND TRUST
REQUEST FOR DIRECTION
(MAY 30, 2019)
IN THE CIRCUIT COURT OF
COOK COUNTY, ILLINOIS
COUNTY DEPARTMENT, PROBATE DIVISION
________________________
ESTATE OF BASAVAPUNNAMMA K. RAO,

Deceased.
________________________
No. 2013 P 6243
Before: Hon. James P. MURPHY, Judge Presiding.
This court failed to address controlling law in

Hudson, Will, and Lis requiring an administrator to
carry out the decedent’s wishes, and thus Padma Rao
(“Padma”) files this Motion to Reconsider the Court’s
decision on the Midland Trust Company (“MTC”)
Request for Direction.
On May 22, 2019, this Court allowed MTC’s request
to withdraw a Motion to Vacate a medical malpractice
settlement in the Law Division, over Padma’s objection.
The Motion to Vacate asserts that the purported
settlement agreement was improper, coerced, and does
not follow the wishes of decedent. After MTC was
appointed Supervised Administrator, in charge of
prosecuting the Law Division matter, MTC asked this
Court for instruction on whether to withdraw the

Res.App.44a
Motion to Vacate after MTC filed a Report stating that
the settlement was financially fair. Padma objected
that the settlement violated the wishes of decedent–a
fact which is undisputed-and thus under Illinois law
was not in the best interests of the Estate, requiring
the Motion to Vacate to proceed. On May 22, the
Court noted that MTC was appointed as independent administrator, and then the Court followed MTC’s
recommendation to allow MTC to withdraw the Motion
to Vacate. The Court did not comment at all on how
Illinois law requires an administrator to carry out the
decedent’s wishes.
ARGUMENT
Because Illinois law mandates that the administrator follows the wishes of the decedent to secure
the best interests of the Estate, this Court’s ruling
failed to implement Illinois law and properly supervise
MTC as a supervised administrator. Instead, the Court’s
reasoning is entirely circular and based on an incorrect
premise—that having appointed MTC as administrator,
the Court was obliged to follow MTC’s recommendation and surrender its supervisory role completely.
However, when MTC’s recommendation completely
ignores Illinois law requiring the administrator to
carry out the wishes of decedent, this is precisely the
situation that requires oversight by this Court in its
supervisory role to ensure that MTC follows Illinois law.
It is undisputed that the First District has repeatedly
held that it is the duty of the administrator to “carry
out the wishes of the decedent” in order to act in the
best interests of the estate. Estate of Hudson by
Caruso v. Tibble, 99 N.E.3d 105, 112 (1st Dist. 2018);
Will v. Northwestern Univ., 378 Ill. App. 3d 280, 291

Res.App.45a
(1st Dist. 2007); In re Estate of Lis, 365 Ill. App. 3d 1,
9 (1st Dist. 2006). There is also no factual dispute that
the purported settlement would fail to carry out the
wishes of the decedent, and this Motion to Reconsider
incorporates Padma’s Response and Objection in its
entirety.
Accordingly, Padma requests that this court
properly exercise its supervisory authority and squarely
address this crucial issue. In its decision here on the
MTC request for direction, this Court should either: 1)
require MTC to follow Illinois law requiring the administrator to carry out the wishes of decedent, and thus
allow the Motion to Vacate to proceed; or 2) address
the law and state that this Court disagrees with
Hudson, Will, and Lis, and thus the Court chooses to
allow administrator MTC to ignore the decedent’s wishes
and withdraw the Motion to Vacate. While Padma
believes choice two would be legally improper, at least
this Court would not be abdicating its supervisory
role, and its legal grounds would be clearly stated for
appeal.1
WHEREFORE, Padma requests the Court direct
MTC to proceed on the Motion to Vacate.

1 Particularly where MTC moved to request a ruling for May 22,
2019 without giving Padma proper notice, fairness and due
process concerns further counsel this Court to carefully and
adequately state its grounds for its finding.

Res.App.46a
By: /s/ Michael Steigmann
190 S. LaSalle St., Suite 2100
Chicago, IL 60603
312 833-5945
Atty Id. 43711

Res.App.47a
MTC’S RESPONSE TO PADMA RAO’S MOTION
TO RECONSIDER RULING ON MIDLAND TRUST
REQUEST FOR DIRECTION
(JUNE 19, 2019)
IN THE CIRCUIT COURT OF
COOK COUNTY, ILLINOIS
COUNTY DEPARTMENT, PROBATE DIVISION
________________________
ESTATE OF BASAVAPUNNAMMA K. RAO,

Deceased.
________________________
No. 2013 P 6243
Before: Hon. James P. MURPHY, Judge Presiding.
NOW COMES Midland Trust Company (“MTC’’),
not individually, but solely as the Court-appointed
Successor Supervised Administrator with Will Annexed
(“Successor Supervised Administrator”) of the Estate
of Basavapunnamma K. Rao, Deceased (“Estate”), by
and through its attorneys, FMS Law Group LLC, and
presents its Response to Padma Rao’s Motion to
Reconsider Ruling on Midland Trust Request for
Direction. In support thereof, the Successor Supervised
Administrator respectfully states as follows:
BACKGROUND FACTS
1. On October 17, 2013, Basavapunnamma K. Rao
(“BK”) passed away, leaving a Will dated February 29,

Res.App.48a
1980 (“Will”). A true and accurate copy of the Will is
attached hereto as Exhibit A.
2. On November 25, 2013, this Court admitted
the Will to probate and appointed BK’s daughter,
Padma Rao (“Padma”), as Independent Administrator
with Will Annexed.
3. On December 8, 2014, Padma, as Independent
Administrator with Will Annexed, filed a lawsuit alleging medical malpractice (“Lawsuit”) against NorthShore
University HealthSystem (“Northshore”) and four
employee physicians of Northshore in the Circuit Court
of Cook County, Law Division, Case No. 2014 L 12745
(“Law Division Proceedings”).
4. On August 22, 2018, after a pre-trial conference
with Judge Thomas V. Lyons, II (“Judge Lyons”), who
is the presiding judge overseeing the Lawsuit in the
Law Division Proceedings, Judge Lyons entered an
Order voluntarily dismissing, with prejudice, Dr. Robert
Valleau, D.O., Dr. Shalini Ravella, M.D. and Dr.
Lamenta S. Conway, M.D. The August 22, 2018 Order
further stated that the Lawsuit shall continue as to
the remaining Defendants, being Northshore and Dr.
Patrick Lay, M.D.
5. On August 23, 2018, after the culmination
of mediation with retired judge Michael Panter (“Judge
Panter”) and ongoing pre-trial conferences with
Judge Lyons, Judge Lyons entered an Order, which
stated in part, that: (i) Padma, acting as Independent
Administrator of the Estate, has agreed to accept the
Defendants’ $2,100,000.00 (“$2.1 Million”) settlement
(“Settlement”); and (ii) the Court, “knowing and
understanding the allegations of this case and the

Res.App.49a
likely evidence in this case, finds said settlement offer
to be fair and reasonable.”
6. On September 5, 2018, the remaining Parties
to the Lawsuit appeared before Judge Lyons on the
original scheduled trial date. During the September 5,
2018 hearing, Padma submitted an ex parte communication to Judge Lyons, which stated that “I did not
and do not assent to settlement. I wish to go to trial.”
7. It was also during the September 5, 2018 hearing
that Padma first alleged that she was not able to settle
the Lawsuit due to BK’s Hindu beliefs. Judge Lyons
quickly admonished Padma for alleging she previously
raised religious beliefs as a reason for objecting to the
Settlement and confirmed that at no point during the
Law Division Proceedings and specifically during the
pre-trial conferences, either in his chambers or in
open court, was religion, and particularly Hinduism,
ever mentioned by Padma.
8. After a lengthy discussion on the record, Judge
Lyons ordered that the terms of the August 23, 2018
Settlement of $2.1 Million would stand and instructed
the Parties to return on September 10, 2018 for presentation of the proposed Petition for Distribution
pursuant to the August 23, 2018 Settlement Order.
9. On September 10, 2018, Judge Lyons entered
a detailed, three (3) page Distribution Order which, in
part: (i) approved the total Settlement of $2.1 Million
and found that the Settlement was fair and reasonable;
(ii) approved attorney fees and costs of Karlin, Fleisher
& Falkenberg (“KFF”) in the amount of $771,447.81;
(iii) approved the Survival Act Claim and distribution
to the Estate in the amount of $1,012,223.44; (iv)
approved the Wrongful Death Claim and distribution

Res.App.50a
of the Wrongful Death proceeds in the amount of
$221,430.13 to Padma; (v) approved the Wrongful
Death Claim and distribution of the Wrongful Death
proceeds in the amount of $94,898.62 to Anita; (vi)
dismissed the Lawsuit, with prejudice, as all matters
between the Estate, Padma, Anita and the Defendants
had been fully compromised, settled and adjourned; and
(vii) approved of Padma withdrawing as Independent
Administrator of the Estate to allow a Bank to substitute in on behalf of the Estate to execute any Release
documents to finalize the Settlement and Lawsuit.
10. On October 10, 2018, Padma, as Independent
Administrator with Will Annexed, filed a Motion to
Vacate on behalf of the Estate in the Law Division
Proceedings. Based on Padma’s allegation of BK’s
alleged religious objections to settlement, Padma’s
Motion to Vacate sought to vacate the following
Orders related to the $2.1 Million Settlement: August
22, 2018; August 23, 2018 (Settlement Order); September 5, 2018; and September 10, 2018 (Distribution
Order).
11. On November 29, 2018, on the petition of
BK’s other daughter, Anita Rao (“Anita”), this Court
converted the Estate to Supervised Administration
and modified Padma’s role from Independent to
Supervised Administrator with Will Annexed.
12. On December 19, 2018, this Court found
Padma to be incapable and unsuitable to act as the
Administrator of the Estate and removed Padma as
Supervised Administrator with Will Annexed for
engaging in waste and mismanagement of the Estate.
As a result, on December 19, 2018, this Court appointed
MTC as Successor Supervised Administrator with Will
Annexed.

Res.App.51a
13. On January 15, 2019, this Court ordered MTC
to investigate whether the $2.1 Million Settlement of
the Lawsuit in the Law Division Proceedings was fair,
reasonable and in the best interests of the Estate.
14. On April 2, 2019, MTC, under seal for confidentiality purposes, provided all interest parties and
a courtesy copy to this Court of its detailed Report to
the Court and Request for Direction (“Report to Court”),
which Report to Court: (a) concluded that the $2.1
Million Settlement is fair, reasonable, and in the best
interests of the Estate and that the Settlement should
be approved by the Court; and (b) sought direction and
authority from the Court to withdraw the Motion to
Vacate, with prejudice, filed in the Law Division
Proceedings by Padma, as the former Independent
Administrator with Will Annexed.
15. On April 11, 2019, this Court entered an Order
granting Padma 28 days (i.e., until May 9, 2019) to
respond or otherwise plead to the Report to the Court.
16. Because Padma had failed to file a responsive
pleading to the Report to the Court by the May 9, 2019
deadline, on May 16, 2019, MTC filed its Petition

for Ruling on Report to the Court and Request for
Direction (“Petition for Ruling”), seeking an Order: (a)

denying any request by Padma for extension of time
to file a response to the Report to Court; (b) striking
any responsive pleading filed after the May 9, 2019
deadline; (c) approving and accepting MTC’s Report;
and (d) directing MTC as to the outstanding issues
outlined in the Report.
17. Also on May 16, 2019, MTC filed and provided
to Padma its Notice of Motion of the Petition for

Res.App.52a

Ruling, which was to be presented to this Court for
approval on May 22, 2019.
18. On May 22, 2019, over the objection of MTC,
this Court entered an Order giving Padma leave to file
her Response and Objection to MTC’s Report to Court,
instanter, and, notwithstanding Padma’s filed Response
and Objection to MTC’s Report to Court, after oral
argument, in the best interests of the Estate, this Court
authorized MTC, as Successor Supervised Administrator with Will Annexed, to withdraw the Motion to
Vacate filed by Padma, as former Independent Administrator with Will Annexed, that was still pending in
the Law Division Proceedings.
19. On May 30, 2019, Padma filed her Motion to

Reconsider Ruling on Midland Trust Request for
Direction (“Motion to Reconsider”), requesting that

this Court direct MTC to proceed on the Motion to
Vacate in the Law Division Proceedings.
LEGAL STANDARD–MOTION TO RECONSIDER
20. Under Section 2-1203(a) of the Illinois Code
of Civil Procedure, a party may file a motion to
reconsider within 30 days after an order is entered.
735 ILCS 5/2-1203(a). The purpose of a motion to
reconsider is to bring to the trial court’s attention: (a)
newly discovered evidence not available at the time of
hearing; (b) changes in the law; or (c) errors in the
court’s previous application of existing law. The decision
to grant or deny a motion to reconsider lies within the
trial court’s discretion. Stringer v. Packaging Corp. of
America, 351 Ill.App.3d 1135, 815 N.E.2d 476, 278
Ill.Dec. 73 (Ill. App., 2004).

Res.App.53a
21. Section 2-1203 does not allow a party to file
a motion to reconsider the Court’s ruling simply because
he/she does not like the outcome and wants the Court
to re-examine the issues. Rather, Illinois case law
limits motions to reconsider to a few distinct situations. First, a party may bring a motion to reconsider
if he finds newly discovered evidence that existed at
the time of the hearing which would help his case.
However, if a party was able to discover this evidence
prior to the hearing and simply failed to do so, the
Court has the discretion to deny the motion to
reconsider and let the ruling stand. Second, a party
may file a motion to reconsider within 30 days if there
has been a change in the law within that time frame.
Third, a party may bring a motion to reconsider if the
Court has made an error in applying the law. Thus, a
Motion to Reconsider is not a weapon to be used to
change the Court’s mind, but rather, is a tool that can
be used in the rare instances where new evidence
comes to light, the law changes, or the Court has made
a mistake.
ARGUMENT
22. Padma’s Motion to Reconsider neither raises
newly discovered evidence not available at the time of
hearing nor does it raise changes in the law. Rather,
Padma’s Motion to Reconsider is based on her incorrect
argument that this Court erred in its application of
existing law by allegedly ignoring Illinois law requiring
an administrator to “carry out the wishes of the
decedent” when it authorized MTC, as Successor Supervised Administrator, to withdraw the Motion to Vacate
in the Law Division Proceedings in the best interests
of the Estate. ( See Padma’s Motion to Reconsider,
Page 2)

Res.App.54a
23. This Court, however, did not err in its previous
application of existing law in authorizing MTC, as
Successor Supervised Administrator, to withdraw the
Motion to Vacate in the Law Division Proceedings in
the best interests of the Estate for the following reasons:
A. The Will Controls with Respect to the Wishes
of a Decedent.
24. Relying on the Lis, Will, and Hudson cases,
Padma asserts that Illinois law requires an administrator to carry out the wishes of the decedent in order
to act in the best interests of the estate. (Motion to
Reconsider, Page 2)
25. The Lis court stated as follows with respect
thereto:
“The purposes of administering an estate are
to conserve the personal assets of the estate,
including the collection of all debts due to the
decedent; to pay all debts and taxes owed by
the decedent and her estate; and to properly
distribute the residue among the heirs at law
according to the terms of the will or, absent
a will, the statute of descent and distribution.
[omit internal citations] In this regard, generally it is the duty of an executor or administrator to perform these tasks [omit internal
citations] and, in so doing, she should carry
out the wishes of the decedent and act in the
best interest of the estate.” [emphasis added]
In re Estate of Lis, 847 N.E.2d 879, 886 (Ill.
App. 2006).
Thus, to summarize and clarify, the Lis line of cases
requires an administrator to administer the estate

Res.App.55a
(i.e., conserve estate assets, pay debts and taxes, and
distribute the estate pursuant to the will or, absent a
will, to the heirs), and in so doing, an administrator
should carry out the wishes of the decedent and act in
the best interests of the estate.
26. The wishes of a decedent are best evinced by
a decedent’s last will and testament. All extrinsic evidence and rules of construction will first yield to the
intent of the settlor or testator that is evidenced
within the four corners of the document. See, e.g., In re
Estate of Kirchwehm, 211 Ill.App.3d 1015, 570 N.E.2d
851, 156 Ill.Dec. 375 (1st Dist. 1991).
27. It is well-settled law in Illinois that if a will
or trust is unambiguous, parol or extrinsic evidence
cannot be used to interpret its meaning. See, e.g., In
re Estate of Hurst, 329 Ill.App.3d 326, 769 N.E.2d 55,
64, 263 Ill.Dec. 853 (4th Dist. 2002); In re Estate of
Steward, 134 Ill.App.3d 412, 480 N.E.2d 201, 203, 89
Ill.Dec. 315 (2d Dist. 1985); Fifth Third Bank, NA. v.
Rosen, 2011 IL App (1st) 093533, ¶ 24, 957 N.E.2d
956, 354 Ill.Dec. 362.
28. BK’s Will is unambiguous and provides clear
direction by authorizing her Executor/Trustee:
“1. TO SELL, CALL in and convert into money
all of my estate not consisting of money and
which I have not specifically bequeathed at
such times and upon such terms as my
Trustee in his absolute discretion may decide
upon.” (Exhibit A, Paragraph 1) (emphasis
added).
Thus, pursuant to Paragraph 1 of the Will, BK’s
Executor/Trustee, at such times and upon such terms
as he or she in his or her absolute discretion may

Res.App.56a
decide upon, may convert the Estate’s interest in the
Lawsuit into money via the Settlement.
29. Additionally, BK’s Will is absolutely silent as
to any of BK’s alleged religious wishes/beliefs, including
any alleged refusal to settle claims (such as the Lawsuit) based on religious beliefs.
30. Here, as BK’s Will is clear and unambiguous
related to the Executor/Trustee’s authority to settle
claims and is silent regarding BK’s alleged religious
wishes/beliefs, this Court need not look beyond the
plain language of BK’s Will to resolve an ambiguity.
Northern Trust Co. v. Winston, 32 Ill.App.3d 199, 336
N.E.2d 543, 548 (1st Dist. 1975) (The instrument must
be sufficiently unclear to justify a court looking
beyond such instrument’s plain language to resolve an
ambiguity).
31. Further, Padma cannot create an alleged
ambiguity in BK’s Will and open the door for parol
evidence as to BK’s alleged religious wishes/beliefs
simply by alleging that BK did not intend to say what
is otherwise clearly stated in BK’s Will. In re Estate
of Romanowski, 329 Ill.App.3d 769, 771 N.E.2d 966,
972, 265 Ill.Dec. 8 (1st Dist. 2002) (A party cannot create
an ambiguity and open the door for parol evidence
simply by alleging that the drafter did not intend to
say what is otherwise clearly stated in the document).
B. Padma’s Testimony Is Barred by the Dead
Man’s Act.
32. Padma disingenuously characterizes as
“undisputed” BK’s alleged wish to have a public jury
trial decide justice in the event of her death instead of

Res.App.57a
obtaining a closed-door settlement with no admission
of wrongdoing. (Response to Petition for Ruling, Page 5)
33. As an initial matter, BK’s alleged religious
wishes/beliefs concerning settlement of litigation are
not undisputed, as Padma characterizes in her Response.
Even if they were allegedly undisputed, Padma’s
testimony concerning BK’s alleged religious wishes/
beliefs concerning settlement is barred by the Dead
Man’s Act, which provides, in relevant part, that:
“In the trial of any action in which any party
sues or defends as the representative of a
deceased person. . . . , no adverse party or
person directly interested in the action shall
be allowed to testify on his or her own behalf
to any conversation with the deceased. . . . or
to any event which took place in the presence
of the deceased. . . . .except in the following
instances:
(a) If any person testifies on behalf of the representative to any conversation with the
deceased. . . . or to any event which took place
in the presence of the deceased. . . . , any
adverse party or interested person, if otherwise
competent, may testify concerning the same
conversation or event.” 735 ILCS 5/8-201.
34. Illinois law provides that the purpose of the
Dead Man’s Act is to “protect decedents’ estates from
depletion based on perjured testimony since it was
considered that a party would be prone to testify
falsely when such testimony cannot be directly contradicted”. Fleming v. Fleming, 85 Ill.App.3d 532, 538, 40
Ill.Dec. 676, 680 (1980). Thus, objections based upon
the Dead Man’s Act are the right of a representative of

Res.App.58a
the estate, not the adverse party. Popham v. Taff (In
Re Estate of Sewart), 274 Ill.App.3d 298, 210 Ill.Dec.
175, 652 N.E.2d 1151 (1995).
35. Padma is no longer a representative of the
Estate that can be excepted from the bar of the Dead
Man’s Act. Here, Padma, as the Respondent with
respect to MTC’s Report to Court and Petition for
Ruling, is an adverse party or person directly interested
in the action. Thus, Padma’s testimony is barred by
the Dead Man’s Act, and Padma is prohibited from
testifying about any conversations or events that took
place in BK’s presence, including but not limited to
BK’s alleged religious beliefs/wishes, no of which are
expressed in the Will.
36. Thus, not only is Padma’s attempted introduction of extrinsic testimony improper (given that
there is no ambiguity in BK’s Will), Padma’s testimony
is barred by the Dead Man’s Act.
C. The Probate Act Specifically Authorizes MTC,
as Successor Supervised Administrator, by
Leave of the Court and Upon Such Terms as
the Court Directs, to Settle the Lawsuit.
37. Certain provisions of the Probate Act, 755
ILCS 5/1-1, et seq., apply to an estate under Supervised
Administration and do not restrict application thereof
based on the terms of the will. Specifically, for example,
with respect to the compromise of claims or any interest
the decedent has in any personal estate, Section 19-8
(“Compounding, compromising or exchanging personal
estate”) provides as follows:

Res.App.59a
“By leave of court without notice or upon
such notice as the court directs, a representative may compound or compromise any
claim or any interest of the ward or the
decedent in any personal estate or exchange
any claim or any interest in personal estate
for other claims or personal estate upon such
terms as the court directs.” 755 ILCS 5/19-8
[emphasis added]
38. Thus, under Section 19-8 of the Probate Act,
MTC, as Successor Supervised Administrator with
Will Annexed, by leave of the Court and upon such
terms as the Court directs, may settle the Lawsuit
pending in the Law Division Proceedings.
39. In the case at bar, pursuant to Section 19-8
of the Probate Act, MTC, as Successor Supervised
Administrator of the Estate, properly presented to
this Court its Report to the Court on the proposed
Settlement and sought this Court’s approval of the
proposed Settlement in its Petition for Ruling. Further,
although not required by Section 19-8 to do so unless
directed by the Court, MTC provided Padma with
notice of its Petition for Ruling.
40. The Report to Court was prepared by MTC
after its thorough and independent investigation to
determine whether the proposed Settlement of the
Lawsuit was fair, reasonable, and in the best interests
of the Estate. (Report to Court, ¶ 25) Specifically, the
Report to Court included: (a) an independent investigation of the Settlement, including a review of all
pleadings and interviews of relevant parties (Report
to Court, ¶¶ 26-40); and (b) two (2) independent professional expert legal opinions as to whether the
Settlement is fair, reasonable, and in the bests interests

Res.App.60a
of the Estate (Report to Court, ¶¶ 41-52). Based on the
foregoing, MTC concluded that the $2.1 Million Settlement was fair, reasonable and in the best interests of
the Estate and recommended that the Settlement
should be approved by this Court. (Report to Court, ¶ 59)
41. On May 22, 2019, after oral argument, pursuant to Section 19-8 of the Probate Act and the
recommendations in MTC’s independent and detailed
Report to Court, this Court entered an Order stating
as follows, specifically determining that to do so was
in the best interests of the Estate:
“3. After review of the Report to the Court
and Padma Rao’s Response thereto, Midland
Trust Company, as the Successor Supervised
Administrator, is hereby authorized to withdraw the Motion to Vacate filed by Padma
Rao, as former Independent Administrator
in Law Division Case #2014 L 12745 in the
best interests of the Estate.”
CONCLUSION
Padma’s Motion to Reconsider must be denied
because: (i) it does not raise newly discovered evidence
not available at the time of hearing; (ii) it does not
raise changes in the law; and (iii) there were no errors
in this Court’s previous application of existing law, as:
(a) BK’s Will is unambiguous in that it fails to specifically address any alleged religious wishes/beliefs or
any alleged wishes with respect to litigation and is
clear by specifically authorizing the Executor/Trustee,
at such times and upon such terms as he or she in his
or her absolute discretion may decide upon, to convert
the Estate’s interest in the Lawsuit into money via the
Settlement; (b) any attempted testimony by Padma as

Res.App.61a
to BK’s alleged religious wishes/beliefs and alleged
wishes related to settling claims, including, but not
limited to the Lawsuit, is barred by the Dead Man’s
Act; and (c) pursuant to Section 19-8 of the Probate
Act, MTC, as Successor Supervised Administrator with
Will Annexed, by leave of the Court and upon such
terms as the Court directs, was authorized to withdraw
the Motion to Vacate in the Law Division Proceedings
and to settle the Lawsuit pending in the Law Division
Proceedings in the best interests of the Estate.
WHEREFORE, Midland Trust Company, not
individually, but solely as Successor Supervised
Administrator with Will Annexed of the Estate of
Basavapunnamma K. Rao, Deceased, respectfully
requests that this Court enter an Order:
A.

denying Padma Rao’s Motion to Reconsider
Ruling on Midland Trust Request for Direction;

B.

for any other direction as the Court deems
just and appropriate.
Respectfully Submitted,
Midland Trust Company, not individually,
but solely as Successor Supervised
Administrator with Will Annexed of the
Estate of Basavapunnamma K. Rao, Deceased
/s/ Mark R. Singler
One of its attorneys
FMS Law Group LLC
200 W. Monroe St., Suite 750
Chicago, Illinois 60606
(312) 332-6381
mark.singler@fmslawgroup.com

Res.App.62a
MTC ANSWER TO THE APPELLANT
PETITION FOR LEAVE TO APPEAL PURSUANT
TO SUPREME COURT RULE 315
(MAY 28, 2020)
IN THE
SUPREME COURT OF THE STATE OF ILLINOIS
________________________
IN RE THE ESTATE OF
BASAVAPUNNAMMA K. RAO,

Deceased.
________________________
PADMA RAO,

Petitioner-Appellant,
v.
MIDLAND TRUST COMPANY,

Respondent-Appellee.
________________________
No. 125994
Appellate Case No. 1-19-1427
Dates of Orders: February 20, 2020 & April 6, 2020
On Appeal from Circuit Court of
Cook County, Probate Division
Circuit Court Case No. 13 P 6243
Hon. James P. Murphy, Judge Presiding

Res.App.63a
Answer to Petition to Appeal as a Matter of Right
Pursuant to Supreme Court Rule 317, or Alternatively,
Petition for Leave to Appeal Pursuant to
Supreme Court Rule 315
Mark R. Singler
(mark.singler@fmslawgroup.com)
Kathryn T. McCarty
(kathryn.mccarty@fmslawgroup.com)
FMS Law Group LLC
200 W. Monroe St., Suite 750
Chicago, Illinois 60606
(312) 332-6381

Attorneys for Respondent, Midland
Trust Company, as Successor
Supervised Administrator with Will
Annexed of the Estate of
Basavapunnamma K. Rao, Deceased

Res.App.64a
POINTS AND AUTHORITIES
STATEMENT OF FACTS ................................................... 1
Probate Proceedings ..................................................... 1
Lawsuit in Law Division Proceedings ......................... 1
Will v. Northwestern University,
378 Ill.App.3d 280, 289 (1st Dist. 2007) .................... 4
Removal of Padma as Administrator/
Appointment of MTC as Successor
Administrator ........................................................ 4
Approval of Settlement of the Lawsuit in the
Probate Proceedings .............................................. 4
Padma’s Appeal to the First District Appellate
Court ...................................................................... 6
MTC’s Motion to Dismiss Appeal ................................ 7
Padma’s Petition for Rehearing ................................... 7
Padma’s Petition to Supreme Court ............................ 8
ARGUMENT ........................................................................ 8
I. Answer to Argument for Appeal as a Matter of
Right Under Rule 317 ........................................... 8
Will v. Northwestern University,
378 Ill.App.3d 280, 289 (1st Dist. 2007) ........ 8

Department of Public Aid ex rel. Cox
v. Miller, 146 Ill.2d 399 (1992) ....................... 8
Id. at 401, 410 ........................................................ 9
Will at 289 .............................................................. 9
II. Answer to Petition, in the Alternative, for
Leave to Appeal Under Rule 315 .......................... 9
Ill. S. Ct. R. 315 ............................................ 9
A. The First District Appellate Court’s Dismissal
and Rehearing Orders do not present a
conflict with other divisions of the Appellate
Court .................................................................... 9
Will at 289 .................................................. 10

Res.App.65a
i.

There is no conflict with the Second
District ........................................................ 11
Jo Lou Mio v. Alberto-Culver Co.,
306 Ill.App.3d 822, 826
(2nd Dist. 1999) ................................... 11
Will at 289 .................................................. 11
In re Estate of Cappetta,
315 Ill.App.3d 414
(2nd Dist. 2000) ................................... 12
In re Estate of Wallen,
262 Ill.App.3d 61 (2nd Dist. 1994) ...... 12
Matter of Lilly’s Estate,
41 Ill.App.3d 348, 349
(2nd Dist. 1976) ................................... 12
ii. There is no conflict with the Third
District ........................................................ 13
Harnetiaux’ Estate v. Hartzell,
91 Ill.App.2d 222, 227
(3rd Dist. 1968) .................................... 12
Will at 289 .................................................. 13
755 ILCS 5/1-2.11 ....................................... 13
755 ILCS 5/8-1(a)........................................ 13
In re Estate of Lay,
2018 IL App (3d) 170378, ¶ 14 ............ 13
Knobloch v. Peoria and Pekin Union Ry. Co.,
118 Ill.App.3d 205, 206
(3rd Dist. 1983) .................................... 13
Id. at 208, 210 ............................................. 13
Estate of Venturelli v. Granville Nat. Bank,
54 Ill.App.3d 997
(3rd Dist. 1977) .................................... 14

Trompeter Const. Co., Inc. v. First
Federal Sav. and Loan Ass’n of
Ottawa, 62 Ill.App.3d 173, 174
(3rd Dist. 1978) .................................... 14

Res.App.66a
Id. at 177 ..................................................... 15
Id. at 176 ..................................................... 15
iii. There is no conflict with the Fourth
District ........................................................ 15
Rodgers v. Consolidated R.R. Corp.,
136 Ill.App.3d 191, 193
(4th Dist. 1985) .................................... 15
Will at 289 .................................................. 15
B. The First District Appellate Court’s Dismissal
and Rehearing Orders do not present a
conflict with this Court’s
holdings.............................................................. 16
In re Estate of Powell,
2014 IL 115997 .............................. 16, 17
Id. at ¶¶ 20, 24............................................ 17
In re Estate of Wellman,
174 Ill.2d 335, 344 (Ill. 1996) .............. 17
C. The First District Appellate Court’s Dismissal
and Rehearing Orders do not present a
conflict with Illinois or U.S. Supreme Court
precedents regarding a constitutional right
to standing or due process ................................ 18
Powell at ¶¶ 20, 24 ..................................... 18
D. The First District Appellate Court’s Dismissal
Order does not require this Court’s exercise
of its supervisory authority, as it effectively
incorporated by reference the nature of the
case and the citation to controlling precedent
in MTC’s Motion to Dismiss ............................. 19
S. Ct. R. 23(c)(i)-(iii) ................................... 19
CONCLUSION .................................................................. 20
CERTIFICATE OF COMPLIANCE ................................. 21
NOTICE OF FILING......................................................... 22

Res.App.67a
CERTIFICATE OF SERVICE .......................................... 23
CERTIFICATE OF FILING .............................................. 24
SERVICE LIST .................................................................. 25

Res.App.68a
ANSWER OF MIDLAND TRUST COMPANY, AS SUCCESSOR
SUPERVISED ADMINISTRATOR WITH WILL ANNEXED OF
THE ESTATE OF BASAVAPUNNAMMA K. RAO, DECEASED,
TO PADMA RAO’S PETITION TO APPEAL AS A MATTER OF
RIGHT PURSUANT TO SUPREME COURT RULE 317, OR
ALTERNATIVELY, PETITION FOR LEAVE TO APPEAL
PURSUANT TO SUPREME COURT RULE 315
Respondent, Midland Trust Company, not individually, but solely as Successor Supervised Administrator
with Will Annexed of the Estate of Basavapunnamma
K. Rao, Deceased, by and through its attorneys, FMS
Law Group LLC, hereby files this Answer to Padma
Rao’s Petition to Appeal as a Matter of Right Pursuant
to Supreme Court Rule 317, or Alternatively, Petition
for Leave to Appeal Pursuant to Supreme Court Rule
315 (“Petition”) and respectfully requests denial of said
Petition, stating in support thereof as follows:
STATEMENT OF FACTS
Probate Proceedings
This instant Petition arises from a decedent’s estate
probate proceeding, the Estate of Basavapunnamma
K. Rao, Deceased (“Estate”), in the Circuit Court of
Cook County, Probate Division, Case No. 2013 P 624
(“Probate Proceedings”). On October 17, 2013, Basavapunnamma K. Rao (“BK”) died unmarried (C.41) and
was survived by two (2) adult heirs, namely, her
daughters, Anita Rao (“Anita”) and the Petitioner,
Padma Rao (“Padma”). (C.65) On November 25, 2013,
in the Probate Proceedings, BK’s Will dated February
29, 1980 (“BK’s Will”) was admitted to probate and
Padma was appointed as Independent Administrator
with Will Annexed of the Estate. (C.62-63)

Res.App.69a
Lawsuit in Law Division Proceedings
On or about December 8, 2014, Padma, as the then
Independent Administrator of the Estate, filed a
medical malpractice lawsuit (“Lawsuit”) against NorthShore University HealthSystem and four of its employee physicians in the Circuit Court of Cook County,
Law Division, Case No. 2014 L 12745 (“Law Division
Proceedings”).1 The Probate Court was informed of
the existence of the Lawsuit in the Law Division Proceedings on or about August 12, 2015. (C.271) On August
23, 2018, after the culmination of mediation with retired
judge Michael Panter and ongoing pre-trial conferences
with Judge Thomas V. Lyons, II (“Judge Lyons”), who
was the presiding judge overseeing the Lawsuit in the
Law Division Proceedings, Judge Lyons entered an
Order (“Settlement Order”), which stated in part, that:
(i) Padma, acting as Independent Administrator of the
Estate, agreed to accept the Defendants’ offer of a $2.1
Million settlement (“Settlement”); and (ii) the Law
Division Court, “knowing and understanding the allegations of this case and the likely evidence in this
case, finds said settlement offer to be fair and reasonable.” (C.356) On September 5, 2018, the remaining
Parties to the Lawsuit appeared before Judge Lyons
on the original scheduled trial date. During the September 5, 2018 hearing, Padma submitted an ex parte
communication to Judge Lyons, which stated that “I
did not and do not assent to settlement. I wish to go to
trial.” (C.359: Page 5, Lines 9-24) It was also during
1 Respondent respectfully requests that this Court take judicial
notice of the pleadings, orders, papers and proceedings in the
Law Division Proceedings (Circuit Court of Cook County, Law
Division, Case No. 2014 L 12745). Illinois Rule of Evidence 201;
735 ILCS 5/8-1002.

Res.App.70a
the September 5, 2018 hearing that Padma first alleged
that she was not able to settle the Lawsuit due to BK’s
Hindu beliefs. (C.361: Page 13, Lines 6-24; C.363:
Page 21; Lines 13-21) Judge Lyons quickly admonished
Padma for alleging that she previously raised religious beliefs as a reason for objecting to the Settlement
and confirmed that at no point during the Law
Division Proceedings and specifically during the pretrial conferences, either in his chambers or in open
court, was religion, and particularly Hinduism, ever
mentioned by Padma. (C.362-364) After a lengthy
discussion on the record, Judge Lyons ordered that
the terms of the August 23, 2018 Settlement of $2.1
Million would stand and instructed the Parties to
return on September 10, 2018 for presentation of the
proposed Petition for Distribution pursuant to the
August 23, 2018 Settlement Order. (C.368) On September 10, 2018, with Padma’s approval, Judge Lyons
entered a detailed, three (3) page Distribution Order
(“Distribution Order”) which, in part: (i) approved the
total Settlement of $2.1 Million and found that the
Settlement was fair and reasonable; (ii) approved attorney fees and costs of Karlin, Fleisher & Falkenberg in
the amount of $771,447.81; (iii) approved the Survival
Act Claim and distribution to the Estate in the amount
of $1,012,223.44; (iv) approved the Wrongful Death
Claim and distribution of the Wrongful Death proceeds
in the negotiated amount of $221,430.13 to Padma; (v)
approved the Wrongful Death Claim and distribution
of the Wrongful Death proceeds in the amount of
$94,898.62 to Anita; (vi) dismissed the Lawsuit, with
prejudice, as all matters between the Estate, Padma,
Anita and the Defendants had been fully compromised,
settled and adjourned; and (vii) approved of Padma
withdrawing as Independent Administrator of the

Res.App.71a
Estate to allow a Bank to substitute in on behalf of the
Estate to execute any Release documents to finalize
the Settlement and Lawsuit. (C.378-380; A-5 to A-7)
On October 10, 2018, in the Law Division Proceedings,
Padma, as the then Independent Administrator, filed
a Motion to Vacate on behalf of the Estate (“Motion to
Vacate”). Based on Padma’s allegation of BK’s alleged
religious objections to settlement, Padma’s Motion to
Vacate sought to vacate the following Orders related
to the $2.1 Million Settlement: August 22, 2018;
August 23, 2018 Settlement Order; September 5,
2018; and September 10, 2018 Distribution Order.
(C.612-616) On October 29, 2018, in the Law Division
Proceedings, Padma, as Independent Administrator,
filed her Plaintiff’s Memorandum in Support of the
Motion to Vacate. (C.307-337) On June 20, 2019, in
the Law Division Proceedings, in her Motion to Strike
(and Response to) Anita Rao’s Motion for Sanctions
and Rule to Show Cause, Padma herself relied on Will
v. Northwestern University, 378 Ill.App.3d 280, 289
(1st Dist. 2007) to argue that the Court should strike
Anita’s Motion for Sanctions on the basis that Anita,
as a non-party to the Lawsuit, lacked standing:
“Anita Rao was not a party to the instant
medical malpractice lawsuit. She has no
divisible or independent cause of action. Only
Dr. Rao, as the administrator of the Estate,
has the power to control the action. Anita
Rao lacks standing in this lawsuit. As such,
any court filing by her in this case was
without any authority and should be stricken.
The Estate requests that this Court strike
the appearance and Sanctions Motion filed
by Anita Rao.” (C.1092-1093)

Res.App.72a
Removal of Padma as Administrator/Appointment of
MTC as Successor Administrator
On November 29, 2018, on the petition of BK’s
other daughter, Anita, in the Probate Proceedings
(C.338-346), based upon the actions of Padma as
Administrator, the Estate was converted from Independent to Supervised Administration, and Padma’s
role was modified from Independent to Supervised
Administrator with Will Annexed. (C.473) On December
19, 2018, the Probate Court found Padma to be incapable and unsuitable to act as the Administrator of the
Estate and removed Padma as Supervised Administrator with Will Annexed for cause, for engaging in
waste and mismanagement of the Estate. (C.562) Also
on December 19, 2018, the Probate Court appointed
Midland Trust Company (“MTC”) as Successor Supervised Administrator with Will Annexed. (C.561)
Approval of Settlement of the Lawsuit in the Probate
Proceedings
On January 15, 2019, the Probate Court ordered
MTC, as Successor Supervised Administrator with
Will Annexed, to investigate whether the $2.1 Million
Settlement of the Lawsuit in the Law Division Proceedings was fair, reasonable and in the best interests
of the Estate. (C.661, A-4, ¶ 11) On April 2, 2019,
MTC, under seal for confidentiality purposes, provided all interested parties and a courtesy copy to the
Probate Court of its detailed Report to the Court and
Request for Direction (“Report to Court”), which: (a)
concluded that the $2.1 Million Settlement is fair, reasonable, and in the best interests of the Estate and
that the Settlement should be approved by the Probate
Court; and (b) sought direction and authority from the

Res.App.73a
Probate Court to withdraw the Motion to Vacate, with
prejudice, filed in the Law Division Proceedings by
Padma, as the former Independent Administrator. On
April 11, 2019, the Probate Court entered an Order
granting Padma 28 days (i.e., until May 9, 2019) to
respond or otherwise plead to the Report to the Court.
(C.667) Because Padma failed to do so by May 9, 2019,
on May 16, 2019, MTC filed its Petition for Ruling on
Report to the Court and Request for Direction (“Petition
for Ruling”), to be presented to the Probate Court for
approval on May 22, 2019 (C.685-686), seeking an
Order: (a) denying any request by Padma for extension
of time to file a response to the Report to Court; (b)
striking any responsive pleading filed after the May
9, 2019 deadline; (c) approving and accepting MTC’s
Report; and (d) directing MTC as to the outstanding
issues outlined in the Report. (C.677-682) On May 22,
2019, over the objection of MTC, the Probate Court
entered an Order giving Padma leave to file her
Response and Objection to MTC’s Report to Court,
instanter. (C.767) Notwithstanding Padma’s filed
Response and Objection to MTC’s Report to Court,
and after a full oral argument, “in the best interests
of the Estate”, on May 22, 2019, the Probate Court
entered an Order authorizing MTC, as Successor
Supervised Administrator with Will Annexed, to withdraw the Motion to Vacate filed by Padma, as former
Independent Administrator, that was still pending in
the Law Division Proceedings. (C.767) On May 30,
2019, Padma filed her Motion to Reconsider Ruling on
Midland Trust Request for Direction (“Motion to Reconsider”), requesting that the Probate Court direct MTC
to proceed on the Motion to Vacate in the Law Division
Proceedings. (C.768-770) It is important to note that
Padma, in her Response and Objection to MTC’s

Res.App.74a
Report and Motion to Reconsider, never objected to
MTC’s finding that the $2.1 Million Settlement was
fair, reasonable and in the best interests of the Estate.
On July 2, 2019, in the Probate Proceedings, after a
full oral argument, the Probate Court entered an Order
denying Padma’s Motion to Reconsider “for the reasons
on the record.” (C.1218) The July 2, 2019 Order
entered by the Probate Court authorized MTC, as
Successor Supervised Administrator, to proceed to
withdraw the Motion to Vacate in the Law Division
Proceedings. On July 3, 2019, in the Law Division
Proceedings, MTC was granted leave to withdraw the
pending Motion to Vacate, with prejudice, for the
reasons stated on the record, and the Settlement
Order and the Distribution Order were ratified by
Judge Lyons for the reasons stated on the record.
(C.1293) Also on July 3, 2019, in the Probate Proceedings, the Probate Court entered an Order: (1) approving
the Settlement Order and the Distribution Order; (2)
approving and authorizing the payout of the Settlement
proceeds pursuant to the Distribution Order; and (3)
authorizing MTC to execute any and all documents
reasonable and necessary to effectuate the Settlement
Order and Distribution Order. (C.1220)
Padma’s Appeal to the First District Appellate Court
On July 11, 2019, Padma, as “beneficiary in the
above matter”, filed in the Appellate Court of Illinois,
First Judicial District (“First District Appellate Court”)
her Amended Notice of Appeal (“Appeal”), seeking the
following relief:
“(a) Reversal and vacating paragraphs 1 and 2
of the July 3, 2019 Order approving the
Settlement Order entered in the Law Division

Res.App.75a
Proceedings and approving the Distribution
Order entered in the Law Division Proceedings;
(b) Reversal and vacating prior orders necessary
to bring about this July 3, 2019 Order approving the settlement and distribution, including
paragraph 2 of the July 2, 2019 Order regarding the denial of Padma’s Motion to Reconsider
the May 22, 2019 Order allowing MTC to
withdraw the Motion to Vacate Settlement;
(c) Reversal of the July 2, 2019 Order regarding
denial of Padma’s Motion to Reconsider as to
the May 22, 2019 Order allowing MTC to
withdraw the Motion to Vacate, with the
Appellate Court directing the trial court to
direct MTC to proceed in the Motion to Vacate
as requested by Padma; and
(d) Reversal of the May 22, 2019 Order allowing
MTC to withdraw the Motion to Vacate, with
the Appellate Court directing the trial court
to direct MTC to proceed in the Motion to
Vacate as requested by Padma.” (C.1228-1229)
MTC’s Motion to Dismiss Appeal
On December 30, 2019, MTC filed its Motion to
Dismiss Appeal (“Motion to Dismiss”), seeking to
dismiss Padma’s Appeal for lack of standing. (A-9 to
A-20) MTC argued that: (1) Padma, individually,
lacked standing to bring the Appeal, as she was not a
party to the underlying medical malpractice Lawsuit;
and (2) Padma has no standing to be a party to the
Appeal as a representative of BK’s Estate, as she is no
longer the representative of the Estate, and, in any

Res.App.76a
event, Padma filed her Appeal solely in her individual
capacity as “beneficiary” of BK’s Estate. (A-18 to A-19)
On February 20, 2020, the First District Appellate
Court entered an Order granting MTC’s Motion to
Dismiss Appeal (“Dismissal Order”). (A-1)
Padma’s Petition for Rehearing
On March 12, 2020, Padma filed her Petition for
Rehearing on Dismissal Issued in Violation of Supreme
Court Rule 23 and Illinois Law (“Petition for Rehearing”), requesting the First District Appellate Court:
vacate its February 20, 2020 Dismissal Order; deny
MTC’s Motion to Dismiss; and allow Padma’s Appeal
to be heard on the merits. (A-30 to A-38) On April 6,
2020, the First District Appellate Court entered an
Order denying Padma’s Petition for Rehearing
(“Rehearing Order”). (A-2)
Padma’s Petition to Supreme Court
On May 12, 2020, Padma filed the instant Petition
related to the Dismissal Order and Rehearing Order.
ARGUMENT
I.

Answer to Argument for Appeal as a Matter of
Right Under Rule 317

Padma argues that the “constitutional question
of [her] procedural due process rights under the
fourteenth amendment arose for the first time on
appeal, as a result of the Appellate Court’s reversal of
the trial court’s finding that [she] has standing in this
matter as heir to be heard and protect her property
interests.” (See, Petition 10) Padma contends that she
“has established her property interests as an Estate

Res.App.77a
heir and wrongful death claimant under Illinois law
as held in Cappetta, Wallen, Thomson, Venturelli,
and Powell.” (See, Petition 10) However, as each such
case is inapposite to this Estate for the reasons set
forth in detail below in Parts II.A. and II.B. and as
Will v. Northwestern University, 378 Ill.App.3d 280,
289 (1st Dist. 2007) establishes that it is the administrator (and not the beneficiaries or heirs) who possesses
the sole right of control over a wrongful death and/or
survival action(s), Padma has failed to establish her
property interests as an Estate heir and wrongful
death claimant, and thus, Padma does not possess any
property interest that is being deprived of due process
by the First District Appellate Court’s Dismissal Order
and Rehearing Order. Next, Padma compares her purported Rule 317 right to appeal to several of this Court’s
decisions to grant a Rule 317 appeal. (See, Petition 1011) For example, in Department of Public Aid ex rel.
Cox v. Miller, 146 Ill.2d 399 (1992), this Court granted
the appellant’s Rule 317 petition because equal protection of the law would have been violated if a settlement
order entered pursuant to the settlement provisions of
a paternity statute later barred a subsequent support
action brought on behalf of a nonmarital child such
that marital children and nonmarital children were
not treated equally. Id. at 401, 410. It is clear in Miller
that the petitioner, the Department of Public Aid on
behalf the minor nonmarital child, would potentially
have been deprived of financial support if treated
differently from a marital child. Here, however, Padma
is not being deprived of her control over the Lawsuit
in the Law Division Proceedings, as Will makes clear
that it is the administrator (and not the beneficiaries
or heirs) who possesses the sole right of control over a
wrongful death or survival action. Will at 289. Thus,

Res.App.78a
as there is no question of first impression that arises
under the Constitution of the United States or of the
State of Illinois as a result of the First District Appellate Court’s Orders, Padma’s Petition pursuant to
Rule 317 must be denied.
II.

Answer to Petition, in the Alternative, for Leave
to Appeal Under Rule 315

In the alternative, Padma seeks leave to appeal
pursuant to Supreme Court Rule 315. Ill. S. Ct. R. 315.
However, her Petition presents no issue that merits
this Court’s review pursuant to Rule 315. The First
District Appellate Court’s Dismissal Order and Rehearing Order do not conflict with any other decision,
present no question of general importance and do not
require the exercise of this Court’s supervisory authority.
Accordingly, as a matter of sound judicial discretion,
this Court should deny Padma’s leave to appeal under
Rule 315.
A. The First District Appellate Court’s Dismissal
and Rehearing Orders Do Not Present a
Conflict with Other Divisions of the Appellate
Court
Padma incorrectly contends that this Court should
grant her Rule 315 Petition, as a conflict purportedly
exists between this decision and other decisions in the
Second, Third and Fourth Districts. (See, Petition 13-16)
Here, Padma, individually, sought to appeal Probate
Court Orders authorizing MTC, as Successor Supervised Administrator, to: (1) withdraw the Motion to
Vacate previously filed by Padma, as the then Independent Administrator, in the Law Division Proceedings related to the $2.1 Million Settlement; and (2)

Res.App.79a
distribute the $2.1 Million Settlement pursuant to the
Settlement and Distributions Orders entered in the
Law Division Proceedings. (C.1228-1229) However, the
law concerning Padma’s lack of standing with respect
to such Orders is so definitive and clear (as outlined
in Will, and as applied by Padma, as the then Independent Administrator, against Anita), the First
District Appellate Court’s Dismissal Order succinctly
“GRANTED” MTC’s Motion to Dismiss. (A-1) In its
Motion to Dismiss, MTC argued that, in the context of
wrongful death and survival actions, Illinois law has
long made clear that, under both wrongful death and
survival actions, “the cause of action must be brought
by and in the name of the representative or administrator of the decedent’s estate. Will at 289. (A-9 to A20) “It is to this administrator that the right of action
accrues and it is this administrator who possesses
the sole right of action or control over the suit; the
beneficiaries or heirs have neither a right of action nor
any control.” Id. and cases cited therein (emphasis
added). (A-16) Ironically, as referenced earlier herein,
in the Law Division Proceedings, Padma herself relied
on Will to argue that only the administrator of the
Estate has any power to control the action and that
the Court should strike Anita’s Motion for Sanctions
on the basis that Anita, as a non-party to the Lawsuit,
lacked standing. (A-17; C.1092-1093)
Now, conveniently, Padma argues that Will does
not apply because it involved the appeal of a Law
Division case and did not involve the Probate Court or
estate administration. (See, Petition 17) However, as
Padma’s Appeal involves the appeal of Orders authorizing MTC, as Supervised Administrator with Will
Annexed, to take specific actions in or related to the

Res.App.80a
Law Division Proceedings (i.e., withdrawing the Motion
to Vacate previously filed by Padma, as the then
Independent Administrator, related to the $2.1 Million
Settlement in the Law Division Proceedings; and
distributing the $2.1 Million Settlement pursuant to
the Settlement and Distributions Orders entered in the
Law Division Proceedings), it relates directly to MTC’s
right of action or control over the Lawsuit, a wrongful
death and survival action. As discussed in detail
below, the First District Appellate Court’s Dismissal
Order and Rehearing Order do not conflict with decisions in other divisions of the Appellate Court:
i. There Is No Conflict with the Second District
Padma disingenuously attempts to create a nonexistent conflict between the First and Second Districts
on the basis of Cappetta, Wallen and Lilly . ( See ,
Petition 13-15) However, the First District Appellate
Court’s Dismissal Order and Rehearing Order do not
conflict with decisions in the Second District. In fact,
the Will Court even cited a Second District case, Jo
Lou Mio v. Alberto-Culver Co., 306 Ill.App.3d 822, 826
(2nd Dist. 1999), in support of the principle that it is
the administrator who possesses the sole right of action
or control over the suit; the beneficiaries or heirs have
neither a right of action nor any control. Will at 289.

Cappetta is inapposite to the Estate, as it did not
involve standing with respect to a wrongful death or
survival action. Rather, Cappetta involved a motion to
approve the settlement of all creditors’ claims and the
standing with respect thereto of two (2) charitable
beneficiaries of another estate that was a creditor/
claimant of Cappetta’s estate excluded from the settlement negotiations of all claims. In re Estate of Cappetta,

Res.App.81a
315 Ill.App.3d 414 (2nd Dist. 2000). Thus, as Cappetta
did not involve standing with respect to a wrongful
death or survival action, the First District Appellate
Court’s Dismissal Order and Rehearing Order do not
conflict with Cappetta.
Like Cappetta, Wallen did not involve standing
with respect to a wrongful death or survival action.
Rather, Wallen involved an appeal of the denial of a
corporate creditor’s claim against the estate where the
estate administrator had improperly commingled the
decedent’s personal estate assets with the assets of
the decedent’s closely held corporation against which
the creditor had a judgment. The Wallen Court affirmed
the trial court’s denial of the creditor’s claim on the
theory of piercing the corporate veil but reversed the
trial court’s denial of its equitable claim against any
assets that could be traced from the corporation into
the possession of the estate. In re Estate of Wallen,
262 Ill.App.3d 61 (2nd Dist. 1994). As Wallen did not
involve standing with respect to a wrongful death or
survival action, the First District Appellate Court’s
Dismissal Order and Rehearing Order do not conflict
with Wallen.

Lilly, a 1976 case, is equally inapposite. Although
Lilly involves a wrongful death action, it is a 1976 case
that pre-dates Mio at a time when the decedent’s
parents in Lilly had the right to bring their wrongful
death claim. Matter of Lilly’s Estate, 41 Ill.App.3d
348, 349 (2nd Dist. 1976). As Lilly is superseded by the
1999 holding in Mio (Mio being consistent with Will),
the First District Appellate Court’s Dismissal Order
and Rehearing Order do not conflict with Lilly.

Res.App.82a
ii. There Is No Conflict with the Third District
Padma also erroneously attempts to create a nonexistent conflict between the First and Third Districts
on the basis of Lay and Knobloch (See, Petition 15),
Venturelli (See, Petition 15) and Trompeter (See, Petition 16). However, the First District Appellate Court’s
Dismissal Order and Rehearing Order do not conflict
with these decisions in the Third District. In fact, the
Will Court even cited a Third District case, Harnetiaux’
Estate v. Hartzell, 91 Ill.App.2d 222, 227 (3rd Dist.
1968), in support of the principle that it is the administrator who possesses the sole right of action or control
over the suit; the beneficiaries or heirs have neither a
right of action nor any control. Will at 289.
Moreover, the Lay case is inapposite, as it did not
involve standing with respect to a wrongful death or
survival action. Rather, Lay specifically involved the
standing of an heir, as an “interested person” as
defined under Section 1-2.11 of the Probate Act (755
ILCS 5/1-2.11), to contest a will pursuant to Section 81(a) of the Probate Act (755 ILCS 5/8-1(a)). In re Estate
of Lay, 2018 IL App (3d) 170378, ¶ 14. As Lay did not
involve standing with respect to a wrongful death or
survival action, the First District Appellate Court’s
Dismissal Order and Rehearing Order do not conflict
with Lay.
Further, Knobloch is also inapplicable, as that
case involved a federal wrongful death action under
the Federal Employers’ Liability Act (“F.E.L.A.”) (45
U.S.C. Sec. 51 et seq.) and a petition for intervention
in the F.E.L.A. claim filed by the mother and guardian
of the decedent’s illegitimate, after-born child, which
petition claimed a conflict of interest between the

Res.App.83a
decedent’s illegitimate child and the decedent’s legitimate child. Knobloch v. Peoria and Pekin Union Ry.
Co., 118 Ill.App.3d 205, 206 (3rd Dist. 1983). The
Knobloch Court found the authority of the federal
Jones Act instructive, especially with respect to the
conflicting nature of the beneficial interests between
the legitimate child and the illegitimate child, in
remanding the case to allow the petition for intervention.
Id. at 208, 210. As Knobloch is limited to standing
with respect to a federal wrongful death action under
the Federal Employers’ Liability Act, the First District
Appellate Court’s Dismissal Order and Rehearing
Order do not conflict with Knobloch.
In addition, Padma cites to Venturelli as a Third
District case in purported “conflict with the First District’s holding here that beneficiaries have no standing
to assert that an Estate Administrator is improperly
carrying out its duties” and purported “conflict with
the decision here that beneficiaries have no standing
to protest any court decision regarding the administrator.”
See, Petition 15-16; Estate of Venturelli v. Granville
Nat. Bank, 54 Ill.App.3d 997 (3rd Dist. 1977). Padma
mischaracterizes the First District Appellate Court’s
Dismissal Order and Rehearing Order as holding that
beneficiaries have no standing to assert mismanagement by the administrator in order to create a conflict.
As the Dismissal Order “granted” MTC’s Motion to
Dismiss, which relied upon the basis of Will (giving
the administrator the sole right of action or control
over a wrongful death or survival action), there is no
conflict with Venturelli.
Finally, Padma mischaracterizes Trompeter as
standing for the proposition that a party of record has
an absolute right to appeal. In Trompeter, the circuit

Res.App.84a
court found in favor of plaintiff’s mechanic’s lien but
also found that such lien was subordinate to the
defendant’s mortgage lien on the property. Trompeter

Const. Co., Inc. v. First Federal Sav. and Loan Ass’n
of Ottawa, 62 Ill.App.3d 173, 174 (3rd Dist. 1978). The
defendant’s appeal of the circuit court’s allowance of
plaintiff’s mechanic’s lien was ultimately dismissed
because the appeal was moot, as the plaintiff’s
mechanic’s lien was subordinate to the defendant’s
mortgage lien. Id. at 177. Although the Trompeter
Court held that a party of record generally has a right
to appeal, it also stated that “[t]he test as to whether
an appellant has a right to review is whether his
interest is direct, immediate and substantial” and not
moot. Id. at 176. Here, although Padma was a party of
record as an heir, her interest was not direct, immediate
and substantial, as the Dismissal Order “granted”
MTC’s Motion to Dismiss, which relied upon the basis
Will (giving the administrator the sole right of action
or control over a wrongful death or survival action).
Thus, as neither Lay nor Knobloch is applicable;
Trompeter does not create an absolute right for a
party of record to appeal where Padma’s interest is
moot in light of MTC’s right to control the Law Division
Proceedings pursuant to Will; and Hartzell is consistent with Will, the First District Appellate Court’s
Dismissal Order and Rehearing Order do not conflict
with cases in the Third District.
iii. There Is No Conflict with the Fourth District
Padma again ineffectively attempts to create a
non-existent conflict between the First and Fourth
Districts on the basis of the Thomson, Weeks, Thorp
and Parlier cases. (See, Petition 15-16) However, the

Res.App.85a
First District Appellate Court’s Dismissal Order and
Rehearing Order do not conflict with these decisions
in the Fourth District. In fact, the Will Court even
cited a Fourth District case, Rodgers v. Consolidated
R.R. Corp., 136 Ill.App.3d 191, 193 (4th Dist. 1985), in
support of the principle that it is the administrator
who possesses the sole right of action or control over
the suit; the beneficiaries or heirs have neither a right
of action nor any control. Will at 289.
Padma cites to Thomson, Weeks, Thorp and Parlier
as Fourth District cases in purported “conflict with
the First District’s holding here that beneficiaries
have no standing to assert that an Estate Administrator
is improperly carrying out its duties” and purported
“conflict with the decision here that beneficiaries have
no standing to protest any court decision regarding
the administrator.” (See, Petition 15-16) Padma mischaracterizes the First District Appellate Court’s
Dismissal Order and Rehearing Order as holding that
beneficiaries have no standing to assert mismanagement by the administrator in order to create a conflict.
In fact, Padma acknowledges the Probate Court allowed
her to file a Response opposing MTC’s Report to Court.
(See, Petition 8) Interestingly, Padma never alleged
mismanagement and never objected to MTC’s Report
confirming the $2.1 Million Settlement was fair,
reasonable and in the best interests of the Estate.
Further, and ironically, Padma was removed as Administrator for waste and mismanagement. (C.562) As the
Dismissal Order “granted” MTC’s Motion to Dismiss,
which relied upon the basis of Will (giving the
administrator the sole right of action or control over a
wrongful death or survival action), there is no conflict
with Thomson, Weeks, Thorp and Parlier. Thus, the

Res.App.86a
First District Appellate Court’s Dismissal Order and
Rehearing Order do not conflict with cases in the
Fourth District.
As a result of all of the above, as the First District
Appellate Court’s Dismissal Order and Rehearing
Order are not in conflict with the Second, Third and
Fourth Districts, this Court should exercise its sound
judicial discretion pursuant to Rule 315(a) in denying
Padma’s Petition.
B. The First District Appellate Court’s Dismissal
and Rehearing Orders Do Not Present a
Conflict with This Court’s Holdings
Padma erroneously attempts to create a nonexistent conflict between the First District Appellate
Court’s Dismissal Order and Rehearing Order and
this Court’s holdings in Powell and Wellman. (See,
Petition 16-17) With respect to In re Estate of Powell,
2014 IL 115997, Padma mischaracterizes Powell as
holding “that the beneficiary of a wrongful death
action has standing to contest the improper attorney
actions of the wrongful death plaintiff’s attorney.”
(See, Petition 16) In Powell, the guardian of one of the
decedent’s beneficiaries filed a legal malpractice cause
action against attorneys/law firms that represented
the administrator of the decedent’s estate in a wrongful
death cause of action. Powell never specifically discussed
standing and the complaint was not dismissed by the
trial court for lack of standing. Rather, the plaintiff’s
complaint was dismissed by the trial court for failure
to allege that the attorneys/law firms who represented
the decedent’s estate in the wrongful death action owed
a duty to plaintiff, as a beneficiary of the decedent’s
estate. This Court ultimately held that an attorney

Res.App.87a
who files a wrongful death action on behalf of a
decedent’s estate owes a legal duty to the decedent’s
beneficiaries at the distribution of funds phase of the
action and that the complaint sufficiently alleged that
defendants’ acts or omissions (in failing to have a
guardian appointed for plaintiff) proximately caused
actual damages. Id. at ¶¶ 20, 24. Here, as Padma’s
Appeal neither involves a legal malpractice claim nor
a claim against the attorneys who filed the wrongful
death action in this matter, Powell is inapplicable and
Padma presents no conflict worthy of this Court’s
attention. With respect to Wellman, MTC agrees that
Wellman does stand for the proposition that the
doctrine of standing requires that a party, either in an
individual or representative capacity, have a real
interest in the action brought and its outcome. In re
Estate of Wellman, 174 Ill.2d 335, 344 (Ill. 1996). MTC
even cited to Wellman in its Motion to Dismiss. (A-16)
However, MTC’s Motion to Dismiss also discussed
standing in the context of wrongful death and survival
actions based on Will and argued that Padma lacked
standing, both individually (as she was not a party to
the medical malpractice Lawsuit) and as former
administrator (as she was removed as Administrator
for mismanagement of the Estate, and, in any event,
Padma had filed her Appeal solely in her individual
capacity as “beneficiary” of the Estate). (A-16 to A-19)
As the First District Appellate Court’s Dismissal and
Rehearing Orders do not conflict with Powell or
Wellman, there is no conflict worthy of this Court’s
attention and this Court should deny Padma’s Rule
315 Petition.

Res.App.88a
C. The First District Appellate Court’s Dismissal
and Rehearing Orders Do Not Present a
Conflict with Illinois or U.S. Supreme Court
Precedent
Padma again attempts to create a non-existent
conflict between the First District Appellate Court’s
Dismissal Order and Rehearing Order and any precedent regarding a constitutional right to standing or
due process. ( See , Petition 17-19) First , Padma
points to her status and standing as a wrongful death
beneficiary on the basis of Powell. However, as discussed
in Part II.B. above, Powell never specifically discussed
standing and only held that an attorney who files a
wrongful death action on behalf of a decedent’s estate
owes a legal duty to the decedent’s beneficiaries at the
distribution of funds phase of the action. Powell at
¶¶ 20, 24. Here, as Padma’s Appeal neither involves a
legal malpractice claim nor a claim against the attorneys who filed the wrongful death action in this
matter, Powell is inapplicable and Padma attempts to
inappropriately expand Powell’s actual holding to
lend herself standing. Next, Padma unsuccessfully
attempts to establish her alleged standing as an heir
and beneficiary in this matter on the basis of Cappetta,
Wallen, Thomson, Lay and Venturelli. However, as each
such case is inapposite here for the reasons discussed
in detail in Parts II.A. and II.B. and as Will establishes that it is the administrator (and not the beneficiaries or heirs) who possesses the sole right of
control over a wrongful death or survival action,
Padma has failed to establish her property interests
as an Estate heir and wrongful death claimant, and
thus, Padma does not possess any property interest
that is being deprived of due process. Thus, as the

Res.App.89a
First District Appellate Court’s Dismissal Order and
Rehearing Order do not conflict with any precedent
regarding a constitutional right to standing or due
process, Padma’s Petition pursuant to Rule 315 should
be denied.
D. The First District Appellate Court’s Dismissal
Order Does Not Require This Court’s Exercise
of Its Supervisory Authority
Padma argues that this Court should exercise its
supervisory authority because the “Appellate Court’s
one-sentence dismissal fails to conform to the requirements of Rules 23(c)(i), (ii) and (iii) for summary
orders.” (See, Petition 19-20) Rule 23(c) requires a
summary order to contain: (i) a statement describing
the nature of the case and the dispositive issues
without a discussion of the facts; (ii) a citation to
controlling precedent, if any; and (iii) the judgment of
the court and a citation to one or more of the criteria
under this rule which supports the judgment. Ill. S.
Ct. R. 23(c)(i)-(iii). However, as the February 20, 2020
Order “GRANTED” MTC’s Motion to Dismiss Appeal
(A-1) (which requested entry of an order dismissing
Padma’s Appeal with prejudice) (A-19), the February
20, 2020 Order effectively incorporated MTC’s Motion
to Dismiss with respect to the nature of the case and
the citation to controlling precedent. Although the
First District Appellate Court’s Dismissal Order may
have omitted the technical requirement of a citation
to one or more of the criteria under Rule 23(c) which
supports the dismissal, given the definitive and clear
basis of Will (giving the administrator the sole right
of action or control over a wrongful death or survival
action) and in the interest of judicial economy, it is not
necessary for this Court to accept review of the First

Res.App.90a
District Appellate Court’s decision in this case merely
to correct such a minor technicality.
CONCLUSION
Neither the First District Appellate Court’s Dismissal Order nor Rehearing Order has deprived Padma
of her control over the Lawsuit in the Law Division
Proceedings, as Will makes clear that it is the administrator (and not the beneficiaries or heirs) who possesses
the sole right of control over a wrongful death or
survival action. As such, Padma has not been deprived
of due process in this matter. Thus, as there is no
question of first impression under the Constitution of
the United States or the State of Illinois which arises
as a result of the First District Appellate Court’s
Dismissal Order and Rehearing Order, Padma’s Petition
pursuant to Rule 317 must be denied. Further, Padma
presents no issue arising from the First District Appellate Court’s Orders that merits this Court’s review
pursuant to Rule 315, as the Dismissal Order and
Rehearing Order: (1) do not conflict with any other
decision; (2) present no question of general importance;
and (3) do not require this Court’s supervisory authority. Therefore, there is no reason for this Court to
revisit these conclusions, and Padma’s Petition pursuant to Rule 315 must be denied. For the foregoing
reasons, Padma’s Petition pursuant to both Rule 315
and Rule 317 should be denied.

Res.App.91a
Respectfully submitted,
/s/ Mark R, Singler

One of the attorneys for Respondent, Midland
Trust Company, as Successor Supervised
Administrator with Will Annexed of the Estate
of Basavapunnamma K. Rao, Deceased
Mark R. Singler
(mark.singler@fmslawgroup.com)
Kathryn T. McCarty
FMS Law Group LLC
200 W. Monroe St., Suite 750
Chicago, Illinois 60606
(312) 332-6381
May 28, 2020

